APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Tenth Circuit
(May 28, 2019). . . . . . . . . . . . . . . . . . . 1a
Appendix B Memorandum Decision and Order in
the United States District Court,
District of Utah, Central Division
(November 16, 2017) . . . . . . . . . . . . . 69a
Appendix C Memorandum Decision and Order in
the United States District Court,
District of Utah, Central Division
(February 9, 2018) . . . . . . . . . . . . . . 84a

1a

APPENDIX A
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 17-4191
[Filed May 28, 2019]
________________________________
TROY MICHAEL KELL,
)
)
Petitioner - Appellee,
)
)
v.
)
)
LARRY BENZON, Warden Utah )
State Prison,
)
)
Respondent - Appellant.
)
________________________________ )
Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:07-CV-00359-CW)
_________________________________
Andrew F. Peterson, Assistant Solicitor General (Tyler
R. Green, Utah Solicitor General, Thomas Brunker,
Deputy Solicitor General, Daniel W. Boyer, Assistant
Solicitor General, Sean D. Reyes, Utah Attorney
General, Salt Lake City, Utah, with him on the briefs),
for Respondent-Appellant.

2a
Lindsey Layer, Assistant Federal Public Defender, Salt
Lake City, Utah (Jon M. Sands, Federal Public
Defender for the District of Arizona, Alexandra
LeClair, Assistant Federal Public Defender, Salt Lake
City, Utah, with him on the briefs), for PetitionerAppellee.
_________________________________
Before BACHARACH, BALDOCK, and PHILLIPS,
Circuit Judges.
_________________________________
BACHARACH, Circuit Judge.
_________________________________
This is an interlocutory appeal from an order
staying a habeas proceeding. We lack jurisdiction and
dismiss the appeal.
Mr. Troy Kell sought habeas relief, but he had not
exhausted two of his claims in state court. The
unexhausted claims created a Catch-22 for Mr. Kell,
risking a dismissal of all of his claims without an
opportunity to timely refile. To relieve Mr. Kell of this
Catch-22, the district court entered a limited stay,
halting proceedings on one of the unexhausted claims
while Mr. Kell returned to state court to exhaust the
claim. For the remaining habeas claims, however, the
district court continued with the proceedings.
In the midst of the ongoing habeas proceedings in
district court, Utah appealed from the grant of a stay,
arguing that the district court should have declined to
grant a stay. Our threshold question involves appellate
jurisdiction. To establish jurisdiction, Utah relies on
the collateral-order doctrine, which allows appeals from

3a
some decisions before the entry of a final judgment. But
the district court’s issuance of a stay does not satisfy
the collateral-order doctrine’s requirements, so we
dismiss the appeal for lack of appellate jurisdiction.
1. Mr. Kell timely files a habeas petition.
Mr. Kell was convicted of murder and sentenced to
death in Utah, and his conviction became final roughly
sixteen years ago. Mr. Kell then had one year to seek
federal habeas relief, but the one-year limitations
period was tolled while he pursued state postconviction remedies. 28 U.S.C. § 2244(d). When the
state post-conviction proceedings ended in 2009, Mr.
Kell timely filed a federal habeas petition.
2. The district court stays the habeas case to
allow Mr. Kell to exhaust a new claim.
In 2013, Mr. Kell asserted two new habeas claims:
(1) that the trial court had improperly commented to
the jury that Mr. Kell bore the burden in the penalty
phase to show that his life should be spared and
(2) that the jurors had improperly considered
extraneous information. Mr. Kell had not exhausted
the two new claims, so the district court needed to
grapple with how to proceed. Continuing with the new
habeas claims could prevent consideration of any of the
claims because a federal district court must ordinarily
dismiss the entire petition when one or more of the
habeas claims are unexhausted. Rose v. Lundy, 455
U.S. 509, 522 (1982). Given the possibility of dismissal,
Mr. Kell faced a dilemma: If the district court were to
dismiss the habeas petition and he later refiled in

4a
federal court, the statute of limitations might have
expired on all of his claims.
To avoid this dilemma, Mr. Kell requested a stay so
that he could exhaust his new habeas claims in state
court. For this request, Mr. Kell invoked a procedure
adopted in Rhines v. Weber, 544 U.S. 269 (2005). Under
Rhines, a district court may stay habeas proceedings to
permit exhaustion of a claim upon satisfaction of three
elements:
1. “Good cause” exists for the failure to exhaust the
claim.
2. The unexhausted
meritorious.”

claim

is

“potentially

3. The petitioner did not engage in “abusive
litigation tactics” or intentionally delay the
proceedings.
Rhines, 544 U.S. at 277–78. The district court declined
to stay the claim involving extraneous influence on the
jury, concluding that this claim lacked potential merit.
But the district court granted the stay on the claim
involving the judge’s comment to the jury, concluding
that Mr. Kell had satisfied the three elements for a
Rhines stay. For the remaining habeas claims,
however, the district court stated that the proceedings
would continue without interruption.1

1

As the dissent points out, the district court denied certification of
an interlocutory appeal. In denying certification, the district court
reasoned that an interlocutory appeal would slow the litigation.

5a
3. Utah appeals the order granting a limited
stay.
In this appeal, Utah argues that the federal district
court erred in granting the stay because
• the court used the wrong test for “good cause”
and misapplied that test,
• the new habeas claim lacks potential merit
based on timeliness, the existence of a
procedural default, and the absence of a
constitutional violation, and
• Mr. Kell was dilatory by waiting over three
years to assert the new habeas claim and over
eight years to seek a stay based on this claim.
4. We lack jurisdiction to consider interlocutory
appeals from Rhines stays.
We can consider these arguments only if Utah
establishes appellate jurisdiction. See EEOC v. PJ
Utah, L.L.C., 822 F.3d 536, 542 n.7 (10th Cir. 2016)
(“[T]he appellant . . . bears the burden to establish
appellate jurisdiction.”). We typically acquire
jurisdiction through the district court’s entry of a final
decision. 28 U.S.C. § 1291. But a stay does not
ordinarily constitute a final decision. See Crystal Clear
Commc’ns, Inc. v. Sw. Bell Tel. Co., 415 F.3d 1171,
1176 (10th Cir. 2005) (“If a stay merely delays
litigation and does not effectively terminate
proceedings, it is not considered a final decision.”).

6a
Utah argues that we nonetheless have jurisdiction
under the collateral-order doctrine. This doctrine would
apply only if the district court’s decision
• conclusively decided the disputed question,
• resolved an important issue separate from the
merits, and
• could not be effectively reviewed on direct
appeal.
Van Cauwenberghe v. Biard, 486 U.S. 517, 522 (1988).
The failure to satisfy any of the three elements would
prevent us from applying the collateral-order doctrine.
See Stubblefield v. Windsor Capital Grp., 74 F.3d 990,
997 (10th Cir. 1996) (stating that the collateral-order
doctrine “does not apply unless each of the three
requirements are met”).
Each element is considered stringent. E.g.,
Flanagan v. United States, 465 U.S. 259, 270 (1984).
And “[i]n case after case in year after year, the
Supreme Court has issued increasingly emphatic
instructions that the class of cases capable of satisfying
this ‘stringent’ test should be understood as ‘small,’
‘modest,’ and ‘narrow.’” United States v. Wampler, 624
F.3d 1330, 1334 (10th Cir. 2010) (Gorsuch, J.). Utah
bears the burden on each element of this “stringent”
test. See Los Lobos Renewable Power, L.L.C. v.
Americulture, Inc., 885 F.3d 659, 664 (10th Cir. 2018)
(stating that the “party asserting jurisdiction under the
collateral order doctrine” bears the burden on each
element).

7a
We assume, for the sake of argument, that an order
issuing a Rhines stay conclusively determines the
disputed question. But the grant of a Rhines stay
involves issues that are intertwined with the merits
and reviewable on direct appeal. We thus lack
jurisdiction under the collateral-order doctrine. See
Crystal Clear Commc’ns, Inc. v. Sw. Bell Tel. Co., 415
F.3d 1171, 1178 (10th Cir. 2005) (noting that the
collateral-order doctrine does not support appellate
jurisdiction if any element is unsatisfied).
A. The grant of a Rhines stay is not completely
separate from the merits.
The collateral-order doctrine applies only when the
order involves an important issue that is not
intertwined with the merits. Coopers & Lybrand v.
Livesay, 437 U.S. 463, 469 (1978). For this element,
Utah must show that the issues bearing on the
appropriateness of a Rhines stay are “completely
separate” from the merits. E.g., Cunningham v.
Hamilton Cty., Ohio, 527 U.S. 198, 205 (1999). Utah
has not made this showing.
1. Avoidance of Piecemeal Litigation
The requirement of complete separation is designed
to prevent piecemeal appellate review. Van
Cauwenberghe v. Biard, 486 U.S. 517, 527 (1988).
Given this purpose, the collateral-order doctrine would
ordinarily apply only if an appellate court would

8a
probably not need to consider the merits a second
time.2
But interlocutory appeals of Rhines stays would
often require federal appellate courts to consider the
merits at least twice:
• once in the interlocutory appeal (when the
respondent argues that a Rhines stay is
improper because the petitioner’s unexhausted
claim lacks potential merit) and
• again after entry of the judgment (when the
parties disagree over the claim’s actual merit).
And if the district court enters multiple Rhines stays,3
we could face three or more appeals with overlapping
issues.
This possibility is apparent here. For example,
consider Utah’s argument that the district court’s jury
instruction was correct. This argument involves a
classic issue on the merits. See Gillette v. Prosper, 858

2

The Supreme Court has explained:
The requirement that the matter be separate from the
merits of the action itself means that review now is less
likely to force the appellate court to consider
approximately the same (or a very similar) matter more
than once, and also seems less likely to delay trial court
proceeds (for, if the matter is truly collateral, those
proceedings might continue while the appeal is pending).

Johnson v. Jones, 515 U.S. 304, 311 (1995) (emphasis in original).
3

Here, for example, the district court granted two Rhines stays.
Our appeal involves only the second stay.

9a
F.3d 833, 839 (3d Cir. 2017) (concluding that the order
being appealed was “closely related” to the merits
because “both concern[ed] alleged constitutional
violations” and involved potential release from prison).
If we were to recognize appellate jurisdiction at this
stage and Mr. Kell were to obtain habeas relief, we
would decide the “potential merit” of Mr. Kell’s new
claim now and the claim’s “actual merit” after the entry
of a final judgment. It is hard to imagine a better
example of piecemeal litigation—precisely what the
Supreme Court has tried to avoid by limiting the
collateral-order doctrine to classes of orders involving
“complete separation” from the merits.
The dissent disagrees:
Even where a district court issues multiple
Rhines stays, each Rhines stay concerns
different claims by a petitioner and therefore
different issues. To illustrate, a district court
issues a Rhines stay on claim x, allowing the
petitioner to exhaust the claim in state court.
After the petitioner exhausts claim x in state
court and returns to federal court, the district
court is not going to issue another Rhines stay
for the purpose of allowing the petitioner to
exhaust claim x. If there is a second Rhines stay,
it would be issued for the petitioner to exhaust
claim y. If both of these Rhines stays are
appealed, and then the final judgment is
appealed, the “same issues” would not be before
this Court three or more times.
Dissent at 16–17 n.5 (emphasis in original).

10a
We respectfully think that the dissent has
misunderstood us. When reviewing a Rhines stay, we
consider the “potential merit” of the unexhausted
claim. For example, let’s consider Utah’s argument that
the district court erred in granting a stay because the
unexhausted habeas claim lacks potential merit. If we
have appellate jurisdiction under the collateral-order
doctrine, we would consider whether the district court
acted within its discretion in treating the unexhausted
claim as potentially meritorious.
Let’s assume, for the sake of argument, that we
were to uphold this determination. When the habeas
case ends in district court, the parties could appeal the
district court’s ultimate determination of the claim’s
actual merit. See Alexander v. U.S. Parole Comm’n, 514
F.3d 1083, 1087 (10th Cir. 2008) (stating that a
conditional writ of habeas corpus is final, creating
appellate jurisdiction); Burton v. Johnson, 975 F.2d
690, 693–94 (10th Cir. 1992) (stating that a conditional
writ of habeas corpus was an appealable final
judgment).
The same would be true for any case involving a
Rhines stay. So in a case with multiple Rhines stays
and multiple interlocutory appeals, we could face the
same issues after a final judgment (even if the
interlocutory appeals individually involved different
issues).

11a
2. The Significance of the Relationship
Between the Rhines Factor of “Potential
Merit” and the Actual Merits of Mr. Kell’s
New Claim
Because “potential merit” is essential for Rhines
stays, interlocutory review would frequently require us
to consider the potential merit of the underlying habeas
claims. And “potential merit” is obviously not
“completely separate” from the actual merits. The
dissent agrees, stating that the Rhines issue (“potential
merit”) “undoubtedly overlaps with the merits.” Dissent
at 16.4

4

Utah and the dissent downplay the significance of this
relationship between the two, calling “potential merit” a “fraction
of a fraction” of the test governing grants of Rhines stays.
Appellant’s Reply Br. at 5; Dissent at 16.

It is true that potential merit is just one element for a Rhines
stay. But a court can enter a Rhines stay only if the unexhausted
claim has potential merit. See pp. 3–4, above. Thus, potential merit
may be a “fraction” of the test, but it is a requirement in any
Rhines stay.
Utah also asserts that the “underlying merit of a habeas claim
is only a fraction of the ‘potential merit’ factor.” Appellant’s Reply
Br. at 5. We are not sure why Utah regards “potential merit” under
Rhines as more inclusive than the actual merit of a habeas claim,
and Utah supplies no explanation. Even if Utah were right,
however, it has not explained how the issue of potential merit
could satisfy the requirement of complete separation from the
merits.

12a
3. Application of the Test of “Complete
Separation”
To apply the element of complete separation, we
must evaluate the pertinent issue based on the entire
class of orders (Rhines stays) rather than the particular
arguments in this appeal. United States v. Bolden, 353
F.3d 870, 876 (10th Cir. 2003).5 We thus consider
whether the issues underlying a Rhines stay are, “as a
whole,” completely separate from the merits. Id.
The Supreme Court has repeatedly cautioned that
the collateral-order doctrine requires “complete
separation” from the merits. E.g., Microsoft Corp. v.
Baker, 137 S. Ct. 1702, 1708 n.3 (2017); Will v. Hallock,
546 U.S. 345, 349 (2006); Sell v. United States, 539 U.S.
166, 176 (2003); Cunningham v. Hamilton Cty., Ohio,
527 U.S. 198, 205 (1999); Quackenbush v. Allstate Ins.
Co., 517 U.S. 706, 712 (1996); Johnson v. Jones, 515
U.S. 304, 310–11 (1995); Digital Equip. Corp. v.
Desktop Direct, Inc., 511 U.S. 863, 867 (1994);
Richardson-Merrell, Inc. v. Koller, 472 U.S. 424, 431
5

In Bolden, we considered whether the collateral-order doctrine
applied to orders disqualifying an entire U.S. Attorney’s office from
representing the government. 353 F.3d at 873. The defendant
contended that the element of separation wasn’t satisfied because
the issue of disqualification was entangled in the merits of his
claims. Id. at 876. We rejected this approach, reasoning that the
Supreme Court “‘has consistently eschewed a case-by-case
approach to deciding whether an order is sufficiently collateral.’”
Id. (quoting Cunningham v. Hamilton Cty., Ohio, 527 U.S. 198,
206 (1999)). We ultimately decided the issue of separation “on the
whole of such [disqualification] orders” without determining
whether the particular issues in that case had been separate from
the merits. Id.

13a
(1985); Coopers & Lybrand v. Livesay, 437 U.S. 463,
468–69 (1978).
4. Utah’s Focus on its Own Arguments
(Rather than the Class of Orders)
Utah also points to its arguments involving good
cause, insisting that they do not relate to the merits.
And the dissent relies on Utah’s arguments involving
timeliness, dilatoriness, and procedural default. The
focus of Utah and the dissent on Utah’s particular
appeal points is misguided, as it disregards
• the overlap between Utah’s appellate arguments
and the merits and
• the need to consider separation categorically
based on the class of orders rather than the
particular issues invoked by the appellant.
a. Utah’s Arguments on Good Cause
Utah tries to justify application of the collateralorder doctrine based on the district court’s alleged
misidentification and misapplication of the test for
good cause. We reject this effort.
i. Misidentifying the Test for Good Cause
Utah identifies the definition of good cause as an
“important” issue. To determine an issue’s importance
under the collateral-order doctrine, we consider

14a
• whether the issue is “important
jurisprudential sense”6 and

in

a

• whether the interests that “‘would potentially go
unprotected without immediate appellate review
are significant relative to efficiency interests
sought to be advanced by adherence to the final
judgment rule.’”7
The definition of good cause might be considered
jurisprudentially important now because we lack a
precedent squarely defining the test for good cause
under Rhines. Of course, if we were to undertake
interlocutory review and define the test, that definition
would settle the issue, rendering it jurisprudentially
unimportant in the future. See 15A Charles Alan
Wright, Arthur R. Miller & Edward H. Cooper, Federal
Practice & Procedure: Jurisdiction & Related Matters
§ 3911.5, at 438 (2d ed. 1992) (“Implementation of a
serious and unsettled question requirement can easily
lead to a situation in which a particular question is
suitable for collateral order appeal the first time it is
presented, but not thereafter.”).
And Utah has not shown an urgency to immediately
define the standard for good cause under Rhines.
Indeed, Utah has offered many alternative arguments
for reversal, such as expiration of the limitations
period, procedural default, misapplication of the

6

Marc Dev’t, Inc. v. FDIC, 992 F.2d 1503, 1505 (10th Cir.), vacated
on other grounds, 12 F.3d 948 (10th Cir. 1993).

7

Pierce v. Blaine, 467 F.3d 362, 370–71 (3d Cir. 2006) (quoting In
re Ford Motor Co., 110 F.3d 954, 959 (3d Cir. 1997)).

15a
district court’s own test for good cause, dilatoriness,
and lack of potential merit. Given Utah’s alternative
arguments, we may not even need to decide the test for
good cause if we were to reverse the grant of a Rhines
stay.
The dissent nonetheless insists that the test for
good cause is important because a court in “literally
every grant of a Rhines stay, not just this particular
grant of a Rhines stay, must decide what the
appropriate standard for determining ‘good cause’ is.”
Dissent at 14. We see the issue differently. If the
collateral-order doctrine applied, only two possibilities
exist:
1. We decide now what the test is for good cause.
2. We do not decide the test now, ruling on other
grounds.
Let’s consider the first possibility (that we decide
the test for good cause in this appeal). Once we define
the test, future panels and district courts will be bound
by stare decisis to apply that test in all future cases.
United States v. Meyers, 200 F.3d 715, 720 (10th Cir.
2000). We thus couldn’t continue to view the definition
of good cause as jurisprudentially significant once we
define the test for good cause.
The second possibility is that we avoid defining the
test for good cause. This possibility is real because we
could reverse a Rhines stay based on any of the three
prongs. For example, we might reverse the grant of a
Rhines stay based on dilatoriness or a lack of potential

16a
merit rather than address the issue of good cause.8 But
if we don’t decide the test for good cause, how could we
apply the collateral-order doctrine based on the
importance of deciding that test? If we were to do so,
we could put ourselves in the odd position of
recognizing appellate jurisdiction to decide the test for
good cause without actually deciding what the test is.
Given these two possibilities, application of the
collateral-order doctrine based on the test for good
cause would paradoxically allow every respondent to
appeal every grant of a Rhines stay based on an issue
that we have already decided or, if not, might not even
need to decide. This paradox highlights the need to
consider the importance of the issues categorically
based on the class of orders involved rather than the
particular arguments raised in a particular case.9
8

Utah and the dissent criticize Mr. Kell for being dilatory, arguing
that Mr. Kell waited until 2017 to seek a stay on his unexhausted
claims. Because we lack jurisdiction, we have no occasion to
address whether Mr. Kell was dilatory. We note, however, that Mr.
Kell requested a stay in a reply brief filed in 2014. See Kell v.
Benzon, No. 2: 07-CV-359, dkt. no. 115 at 50 (D. Utah Jan. 24,
2014) (Pet’r’s Reply Br.) (“Mr. Kell asks this Court to stay these
proceedings and hold them in abeyance to allow him to return to
state court to exhaust those claims.”). But as Utah and the dissent
point out, he didn’t move for a stay on this issue until 2017.

9

The dissent calls this possibility an “irrelevant rabbit hole,”
reasoning that “the question is whether the district court’s order
resolves an issue that is completely separate from the merits.”
Dissent at 14 n.4. As the dissent elsewhere acknowledges,
however, the question must not only be completely separate from
the merits but also “important.” Dissent at 9–10. Here we are
considering the element of importance. Because the presence of an
important issue is necessary under the collateral-order doctrine,

17a
ii. Misapplying the Test for Good Cause
On the merits of the stay, Utah argues that the
district court misapplied the test for good cause. Utah’s
argument shows that application of the good cause test
not only overlaps with the merits but would often
require consideration of them. For example, petitioners
could sometimes raise the same theory for good cause
and the merits of a habeas claim. An example is a
Brady claim. See Brady v. Maryland, 373 U.S. 83
(1963). Courts have considered withholding of
information as “good cause.” See Doe v. Jones, 762 F.3d
1174, 1182 (10th Cir. 2014). So when a petitioner
asserts a Brady claim, the petitioner might rely on the
withholding of evidence for both good cause and the
merits of the habeas claim. See, e.g., Wogenstahl v.
Mitchell, 668 F.3d 307, 322 (6th Cir. 2012) (concluding
that a habeas petitioner “had good cause for failing to
raise the Brady issue prior to 2003, because the new
information about [a prosecution witness’s prior arrest
and adjudication of delinquency] was not disclosed
until then”).
An overlap also exists between the inquiry on good
cause and the merits of other habeas claims. For
example, the inquiry on good cause may overlap with
the merits when a petitioner alleges ineffective
assistance of trial counsel. Suppose that a petitioner
alleges good cause based on post-conviction counsel’s
failure to assert ineffective assistance on the part of
trial counsel. This allegation could suffice to avoid a

our inquiry into the importance of the good-cause test is not an
“irrelevant rabbit hole.”

18a
procedural default. Martinez v. Ryan, 566 U.S. 1, 9
(2012). And Utah argues that the tests for good cause
and procedural default are the same. Given this
argument, we might find “good cause” based on postconviction counsel’s ineffectiveness for failure to assert
trial counsel’s ineffectiveness. And once the case ends
in district court, we could again face the issue of trial
counsel’s ineffectiveness as part of our review on the
merits.
The Supreme Court addressed this kind of overlap
in Van Cauwenberghe v. Biard, 486 U.S. 517 (1988),
and Coopers & Lybrand v. Livesay, 437 U.S. 463 (1978).
In Van Cauwenberghe, the Court held that the denial
of a motion to dismiss under the doctrine of forum non
conveniens was not separate from the merits because
the doctrine involves factors (like the location of the
witnesses and evidence) that are enmeshed with the
merits. 486 U.S. at 528–29. And in Coopers & Lybrand,
the Court held that consideration of class certification
involved issues intertwined with the merits because
class certification involves merits-related matters like
the typicality of the claims, the adequacy of a
representative, and the presence of common questions
of law or fact. 437 U.S. at 469 & n.12. Thus, the Court
held that the collateral-order doctrine does not cover
denials of class certification. Id. at 469. Neither case
involved actual consideration of the merits; but in both
cases, the issues overlapped with the merits.
Like issues involving forum non conveniens and
class certification, the issue of good cause will often
overlap with a court’s preliminary assessment of the
merits, preventing application of the collateral-order

19a
doctrine. See Cunningham v. Hamilton Cty., Ohio, 527
U.S. 198, 205 (1999) (holding that sanctions orders
under Fed. R. Civ. P. 37(a) do not fall under the
collateral-order doctrine because they “often will be
inextricably intertwined with the merits of the action,”
“[m]uch like the orders at issue in Van Cauwenberghe
and Coopers & Lybrand”).
Here, for example, Utah challenges the finding of
good cause, arguing that Mr. Kell could have asserted
the claim at trial and in a direct appeal. To address
this argument, we would need to ask whether Mr.
Kell’s attorneys should have asserted the claim at trial
or in the direct appeal. This inquiry would presumably
overlap with Mr. Kell’s habeas claims of ineffective
assistance of counsel. Thus, resolution of Utah’s
arguments on good cause could entangle us in the
substance of Mr. Kell’s underlying habeas claims. In
these circumstances, consideration of good cause under
Rhines is not categorically separate from the merits.10

10

The dissent questions our application of the requirement of
complete separation, stating that we are avoiding the “obvious”
reality that the definition of the standard for good cause is “a
purely legal issue that has no overlap with the merits of the case.”
Dissent at 14 (emphasis in original). The dissent bases its
disagreement on footnote ten in Mitchell v. Forsyth, 472 U.S. 511
(1984). Dissent at 14. But this footnote explains that an issue is
not considered “completely separate” from the merits when its
effect “may depend . . . on the success of the parties in litigating
the other legal and factual issues that form their underlying
dispute.” Mitchell, 472 U.S. at 529–30 n.10 (emphasis added).
The Supreme Court illustrated this point with a
disqualification order. Id. The disqualification order failed this
requirement of “complete separation” because it was “not a legal

20a
b. Timeliness, Dilatoriness, and Procedural
Default
In this appeal, Utah also argues that (1) Mr. Kell
was dilatory and (2) his unexhausted claim is untimely
and procedurally defaulted. Utah does not suggest that
these arguments would support collateral-order
jurisdiction. But the dissent does, stating that
timeliness, dilatoriness, and procedural default are
separate from the merits.
For the sake of argument, let’s assume that the
dissent is right and ignore the fact that Utah (the
appellant invoking appellate jurisdiction) didn’t
present these arguments as grounds to invoke the
collateral-order doctrine. See pp. 35–36, below (citing
cases for the unavailability of sua sponte arguments to
support jurisdiction). As Utah argues, however, the
separate issue must also be considered important in
order to trigger this doctrine. See p. 5, above. Neither
Utah nor the dissent offers any argument about the
importance of Utah’s arguments on timeliness,
dilatoriness, or procedural default. These arguments
involve garden-variety application of legal principles
settled long ago. See U.S. Fidelity & Guaranty Co. v.
Arch Ins. Co., 578 F.3d 45, 59 (1st Cir. 2009)
(concluding that an issue involving insufficiency of an

issue that [could] be decided with reference only to undisputed
facts and in isolation from the remaining issues of the case.” Id.
Under Mitchell’s footnote ten, misapplication of Rhines’s
requirement of good cause could not satisfy the “complete
separation” requirement unless the issue were categorically
separate from the merits of any of the habeas claims.

21a
affidavit was not “important enough . . . to justify the
application of the collateral order doctrine”); United
States v. Billmyer, 57 F.3d 31, 35 (1st Cir. 1995)
(“Ordinarily, a discovery order will meet the legalimportance test only if it presents a claim of clear-cut
legal error and not merely a challenge to the district
judge’s factual determinations or the application of
settled legal rule to the particular facts.”). Thus, Utah’s
arguments on timeliness, dilatoriness, and procedural
default would not constitute important issues, as
required to trigger the collateral-order doctrine.
c. The Categorical Approach
Perhaps in some appeals of Rhines stays, the
specific argument being advanced might not involve the
potential merit of an unexhausted claim. But the
Supreme Court has “consistently eschewed a case-bycase approach to deciding whether an order is
sufficiently collateral.” Cunningham v. Hamilton Cty.,
Ohio, 527 U.S. 198, 206 (1999); see also p. 11 & n.5
(discussing United States v. Bolden, 353 F.3d 870, 876
(10th Cir. 2003)).
The wisdom of the Supreme Court’s approach is
self-evident. For example, let’s assume that Utah’s
appellate arguments are important and completely
separate from the merits. If we were to base the
collateral-order doctrine solely on the happenstance of
what Utah argues in a given case, we would be
allowing or disallowing interlocutory appeals of all
Rhines stays based on what a single party has chosen
to argue in a single case. To avoid this anomaly, the
Supreme Court has required us to consider the
underlying class of orders rather than the peculiarities

22a
of the arguments presented by this particular
appellant. See p. 11, above. So here we consider the
entire category of orders. See id.
The dissent apparently agrees, stating that we must
“look[] to the issues the class of orders (Rhines stays)
generally raise.” Dissent at 12. And the dissent
acknowledges that we are not to focus on “case-specific
issues,” such as the issues presented in this particular
order granting a Rhines stay. Id.
With this acknowledgment, the dissent contends
that the appellant must present “at least one issue”
that is “completely separate from the merits.” Id. at 10
(emphasis in original). But the Supreme Court has
consistently rejected this approach, holding that even
if some appeals of Rhines stays might involve appellate
issues separable from the merits, the collateral-order
doctrine cannot apply absent complete separation for
the entire class of orders. Richardson-Merrell, Inc. v.
Koller, 472 U.S. 424, 439 (1985);11 see also Cunningham

11

The Koller Court explained:
This Court . . . has expressly rejected efforts to reduce the
finality requirement of [28 U.S.C.] § 1291 to a case-by-case
determination of whether a particular ruling should be
subject to appeal. Even if some orders disqualifying
counsel are separable from the merits of the litigation,
many are not. Orders disqualifying attorneys on the
ground that they should testify at trial, for example, are
inextricable from the merits because they involve an
assessment of the likely course of the trial and the effect of
the attorney’s testimony on the judgment. Appellate

23a
v. Hamilton Cty., Ohio, 527 U.S. 198, 206 (1999)
(“Perhaps not every discovery sanction will be
inextricably intertwined with the merits, but we have
consistently eschewed a case-by-case approach to
deciding whether an order is collateral.”). So when we
assess whether the class of orders entails complete
separation from the merits, we consider the issues in
all grants of stays under Rhines. The presence of a
single issue separate from the merits in a particular
appeal would not trigger the collateral-order doctrine.
See Cunningham, 527 U.S. at 205–06 (holding that
sanctions orders under Fed. R. Civ. P. 37(a) are
categorically considered intertwined with the merits
even though sanctions orders are sometimes separate
from the merits); Koller, 472 U.S. at 439–40 (holding
that orders disqualifying counsel in civil cases are
categorically considered intertwined with the merits
because many are even though some aren’t); see also In
re Continental Investment Corp., 637 F.2d 1, 6 (1st Cir.
1980) (holding “that denials of disqualification motions
as a class raise significant legal questions too rarely to
bring them within the Cohen exception”).
The categorical approach is apparent in the
Supreme Court’s handling of qualified immunity. There
the Court has held that legal issues involving a clearly
established violation are completely separate from the
merits. Mitchell v. Forsyth, 472 U.S. 511, 528 (1985).
But the Supreme Court made that determination by

review of orders disqualifying counsel for misconduct may
be entwined with the merits of the litigation as well.
472 U.S. at 439 (citations omitted).

24a
considering the issues arising in the entire class of
orders rather than in the particular case being
reviewed. See id. at 524–30.
The Supreme Court later went further, expressly
disavowing a case-by-case approach in Johnson vs.
Jones, 515 U.S. 304 (1995). There the Court refused to
extend the collateral-order doctrine to cover denials of
qualified immunity based on insufficiency of the
evidence. Johnson, 515 U.S. at 314–15. The Court
explained that under the categorical approach,
appellate judges could not consider the particular facts
to determine the applicability of the collateral-order
doctrine. Id. at 315. Instead, judges were to consider
the kinds of issues likely to arise in appeals involving
this class of orders. Id. at 315–17. For example, the
Supreme Court acknowledged that the facts in Johnson
itself were straightforward, but stressed that many
cases involving constitutional torts would entail factual
disputes ill-suited for review under the collateral-order
doctrine. Id. at 316.
Beyond qualified immunity, circuit courts have
followed the Supreme Court’s lead by deciding the
element of complete separation based on the class of
orders involved rather than approaching this element
based on the particular issues raised by a particular
appellant. See Henry v. Lake Charles Am. Press, L.L.C.,
566 F.3d 164, 173 (5th Cir. 2009) (“Consistent with
Supreme Court precedent and the general purposes of
the final judgment rule, we determine whether an
order is appealable as a general or categorical
matter.”); see also In re Carco Electronics, 536 F.3d 211,
213 (3d Cir. 2008) (“[T]he Supreme Court’s statement

25a
in Cunningham that we should not apply the collateral
order doctrine on a ‘case-by-case’ basis indicates that
we should not attempt to carve out individualized,
case-specific exceptions to the general rule that
discovery orders are not immediately appealable.”);
Abelesz v. OTP Bank, 692 F.3d 638, 649 (7th Cir. 2012)
(“The Supreme Court has applied the collateral order
rule categorically, treating different sorts of defenses or
issues as either covered or not covered.”).
***
Viewed as a category, interlocutory appeals of
Rhines stays would generally enmesh us in the merits.
Thus, the collateral-order doctrine’s second element is
not met when the district court grants a Rhines stay.
B. The grant of a Rhines stay can be reviewed
in the appeal from a final judgment.
Utah fails to satisfy not only the collateral-order
doctrine’s second element but also the third element.
Under this element, appellate jurisdiction exists
only if the issue is important and could not otherwise
be effectively reviewed after the entry of final
judgment. Mitchell v. Forsyth, 472 U.S. 511, 525 (1985).
But we do not just consider unreviewability; we also
consider the importance of the interest lost by deferring
review until after the final judgment. See Digital
Equip. Corp. v. Desktop Direct, Inc., 511 U.S. 863,
878–79 (1994). This inquiry entails “a judgment about
the value of the interests that would be lost through
rigorous application of the final judgment
requirement.” Id. On this element, Utah hasn’t
satisfied its burden.

26a
Utah argues that the grant of a Rhines stay is
unreviewable after a final judgment because (1) the
loss of time can never be remedied and (2) the grant of
a stay becomes moot upon entry of a final judgment.
We reject both arguments.
As Utah points out, the delay itself is unreviewable
because a court can’t restore Utah’s lost time. But we
do not ordinarily regard the loss of time as sufficiently
important to trigger the collateral-order doctrine. See
United States v. Section 17 Tp. 23 North, Range 22 East
of IBM, Delaware Cty., Okla., 40 F.3d 320, 322 (10th
Cir. 1994) (holding that an interest in defending a
forfeiture action now, as opposed to later, “is not the
type of ‘important’ right which the Supreme Court
contemplated as requiring immediate review in [Digital
Equipment Corp. v. Desktop Direct, Inc., 511 U.S. 863
(1994)]”). After all, no pretrial decision can ever restore
a party’s lost time, and we routinely disallow
interlocutory appeals for most pretrial decisions. See
Mesa Oil, Inc. v. United States, 467 F.3d 1252, 1255
(10th Cir. 2006) (“The costs of unnecessary litigation
caused by what eventually turns out to be an error by
the district court is insufficient to warrant an
interlocutory appeal.”); see also In re Kozeny, 236 F.3d
615, 619–20 (10th Cir. 2000) (two-judge motions
panel)12 (“If the stay merely delays the federal
12

Because Kozeny was issued by a two-judge motions panel, we
would ordinarily discount the opinion’s precedential value. Crystal
Clear Comm’ns, Inc. v. Sw. Bell Tel. Co., 415 F.3d 1171, 1176 n.3
(10th Cir. 2005). Here, however, we are not relying on Kozeny for
its precedential value. We are instead relying only on the opinion’s
observation about our general practice in regarding stay orders as
unappealable.

27a
litigation, courts have generally held the stay orders
not to be appealable.”); accord Kershaw v. Shalala, 9
F.3d 11, 14 (5th Cir. 1993) (“Absent a Moses Cone
situation, stay orders . . . are usually not reviewable as
collateral orders.”);13 see also Hon. Edith H. Jones,
Appeals of Arbitration Orders—Coming Out of the
Serbonian Bog, 31 S. Tex. L. Rev. 361, 372 (1990)
(“Absent exceptional circumstances, it is unlikely that
an order granting a motion to stay proceedings should
be appealable as a collateral order.”).
Time is a precious commodity in habeas
proceedings, particularly when the petitioner faces a
death sentence (as Mr. Kell does). And until now, the
case has lingered in state and federal courts for roughly
a quarter of a century. But we cannot single out
particular cases to decide the extent of the interest lost
by deferring review. Instead, we must consider the
public interest based on the class of orders (Rhines
stays). See Mohawk Indus., Inc. v. Carpenter, 558 U.S.
100, 107 (2009);14 In re Motor Fuel Temperature Sales

13

In Kershaw, the Fifth Circuit observed that in Moses Cone, the
Supreme Court had regarded a stay as final when its purpose and
effect were to surrender jurisdiction of a federal suit to a state
court. Kershaw, 9 F.3d at 14 (quoting Moses H. Cone Memorial
Hosp. v. Mercury Const. Corp., 460 U.S. 1, 11 n.11 (1983)). This
case does not involve surrender of jurisdiction over a federal suit.
Instead, the district court required Mr. Kell to exhaust state-court
remedies so that the federal court could consider the habeas claim.
14

In Mohawk Industries, the Supreme Court explained:
[T]he decisive consideration is whether delaying review
until the entry of final judgment “would imperil a

28a
Practices Litig., 641 F.3d 470, 482 (10th Cir. 2011)
(“When analyzing the third Cohen requirement, we do
not consider whether the circumstances of the
particular case before us warrant our immediate
review; rather, we examine whether the entire category
of rulings to which the claim belongs can be adequately
vindicated on review of a final judgment or by other
means.”). This approach requires us to decide whether
the value that we place on immediate review would
override Congress’s policy against piecemeal review.
To answer, we must consider the many important
interests that exist, often in tension with one another.
For example, the state has important interests in
comity and enforcement of its own criminal judgments,
which Congress recognized in the Antiterrorism and
Effective Death Penalty Act of 1996. See Williams v.
Taylor, 529 U.S. 420, 436 (2000) (stating that the Act
was designed to advance “comity, finality, and
federalism”). But habeas review inherently creates
tension with comity, as federal courts review decisions
by a state’s highest court. See Duckworth v. Eagan, 492

substantial public interest” or “some particular value of
higher order.”
In making this determination, we do not engage in an
“individualized jurisdictional inquiry.” Rather, our focus is
on “the entire category to which the claim belongs.” As
long as the class of claims, taken as a whole, can be
adequately vindicated by other means, “the chance that
the litigation at hand might be speeded, or a ‘particular
injustic[e]’ averted,” does not provide a basis for
jurisdiction under § 1291.
Mohawk Indus., 558 U.S. at 107 (citations omitted).

29a
U.S. 195, 211 (1989) (discussing the tension of federalstate relations because of habeas review, where “lower
federal courts often sit in ‘review’ of the judgments of
the highest courts of a state judicial system”).
To ease this tension, Congress has required habeas
petitioners to exhaust state-court remedies. 28 U.S.C.
§ 2254(b)(1)(A); see also Rose v. Lundy, 455 U.S. 509,
518 (1982) (“The exhaustion doctrine is principally
designed to protect the state courts’ role in the
enforcement of federal law and prevent disruption of
state judicial proceedings.”). Exhaustion, however, can
slow the state’s ability to enforce criminal judgments,
especially those involving capital sentences. See Ira P.
Robbins, Toward a More Just & Effective System of
Review in State Death Penalty Cases, 40 Am. U. L. Rev.
1, 131 (1990) (“[R]equiring exhaustion [in habeas
review of death-penalty cases] usually necessitates
further delay, even if the unexhausted claim is an
obviously frivolous one.”). This risk is particularly
significant in habeas proceedings, where swift action is
essential. See Rhodes v. Hannigan, 12 F.3d 989, 992
(10th Cir. 1993) (“Habeas corpus ‘is a speedy remedy,
entitled by statute to special, preferential consideration
to insure expeditious hearing and determination.’”
(quoting Van Buskirk v. Wilkinson, 216 F.2d 735,
737–38 (9th Cir. 1954))); Johnson v. Rogers, 917 F.2d
1283, 1284 (10th Cir. 1990) (“[W]rits of habeas corpus
are intended to afford a ‘swift and imperative remedy
in all cases of illegal restraint or confinement.’”
(quoting Fay v. Noia, 372 U.S. 391, 400 (1963))).
The Supreme Court sought to balance these
competing interests in Rhines by giving discretion to

30a
federal district courts to stay habeas proceedings while
a petitioner exhausts state-court remedies. Rhines v.
Weber, 544 U.S. 269, 276–78 (2005). But discretion can
be abused. The question presented here is when an
appellate court should review the district court’s
exercise of discretion.15 Given the conflicting interests,
we must consider whether interlocutory review of
Rhines stays would speed review or slow it through
piecemeal review.
For this inquiry, we start with Congress’s policy
against piecemeal review. In general, Congress has
tried to avoid piecemeal review by confining appellate
review to final orders. See Abney v. United States, 431
U.S. 651, 656 (1977) (“[T]here has been a firm
congressional policy against interlocutory or ‘piecemeal’
appeals and courts have consistently given effect to
that policy.”). And Congress has expressed its judgment
“that the district judge has the primary responsibility
to police the prejudgment tactics of litigants,”
reasoning “that the district judge can better exercise
that responsibility if the appellate courts do not
15

Other circuit courts have generally declined to apply the
collateral-order doctrine to orders subject to the abuse-of-discretion
standard. See Grace v. Vannoy, 826 F.3d 813, 820 (5th Cir. 2016)
(“Typically, orders reviewable for abuse of discretion are not
appealable under the collateral-order doctrine.”); In re Kemble, 776
F.2d 802, 806 (9th Cir. 1985) (“Ordinarily we should not use the
collateral order doctrine to examine the exercise of discretion by
trial judges.”). One leading treatise attributed this “wise” practice
to a reluctance to undertake interlocutory review when appellate
courts have allowed district courts to exercise discretion. 15A
Charles Alan Wright, Arthur R. Miller & Edward H. Cooper,
Federal Practice & Procedure: Jurisdiction & Related Matters,
§ 3911.5, at 433–35 (2d ed. 1992).

31a
repeatedly intervene to second-guess prejudgment
rulings.” Richardson-Merrell, Inc. v. Koller, 472 U.S.
424, 436 (1985) (emphasis in original).
The Supreme Court has respected this
congressional policy choice and restricted prejudgment
review because it inefficiently fosters piecemeal
appeals. See Mohawk Indus., Inc. v. Carpenter, 558
U.S. 100, 106 (2009) (“Permitting piecemeal,
prejudgment appeals, we have recognized, undermines
‘efficient judicial administration’ and encroaches upon
the prerogatives of district court judges, who play a
‘special role’ in managing ongoing litigation.”);
Richardson-Merrell, Inc. v. Koller, 472 U.S. 424. 430
(1985) (stating that the final judgment rule prevents
delays from frequent appellate interruptions in the
litigation); Abney, 431 U.S. at 657 (stating that 28
U.S.C. § 1291, which restricts appellate review to final
decisions, is designed to prevent delays and disruptions
through intermediate appeals).
Given Congress’s preference against interlocutory
review, we must consider whether Rhines stays involve
aberrant circumstances justifying our intrusion into
Congress’s effort to avoid piecemeal review. We think
not. In Rhines itself, the Supreme Court balanced the
compelling interests by devising a procedure to
accommodate
• the state’s interest in comity,
• the congressional requirement of exhaustion of
state-court remedies,
• the congressional determination that piecemeal
review generally slows the litigation,

32a
• the universal recognition that habeas cases
should proceed expeditiously, and
• the congressional objective in the Antiterrorism
and Effective Death Penalty Act to streamline
habeas proceedings.
Rhines v. Weber, 544 U.S. 269, 276–78 (2005); see
Howard v. Norris, 616 F.3d 799, 802–03 (8th Cir. 2010)
(stating that “Rhines effectively balances the state’s
interest in avoiding delay in a habeas proceeding, with
the petitioner’s (and the state’s) interest in having
habeas claims addressed first in state court”); see also
Grace v. Vannoy, 826 F3d 813, 819 (5th Cir. 2016)
(stating that in Rhines, “the Supreme Court implicitly
de-emphasized the importance of the state’s interests
in finality and speedy resolution of mixed federal
petitions”).
If we were to intervene after a district court granted
a stay, would our intervention quicken or slow the
litigation? Here, the district court stayed the
proceedings for only a single claim and stated that the
proceedings would continue on all of the other habeas
claims. If we were to interject ourselves now, we could
inadvertently trigger simultaneous litigation of the
same case in three courts:
1. the state district court or the state appellate
court,
2. the federal district court, and
3. our court.

33a
We question the efficiency of duplicative litigation in
three courts. See Swanson v. DeSantis, 606 F.3d 829,
833 (6th Cir. 2010) (“Claim-by-claim litigation in the
district and appellate courts ‘undermines [Congress’]
goal of streamlining federal habeas proceedings . . . .”
(emphasis and alteration in original) (quoting Rhines
v. Weber, 544 U.S. 269, 277 (2005))).
But double or triple litigation tracks could create
not only inefficiency but also more delay. For example,
if we were to affirm the grant of a stay, we could be
needlessly slowing the habeas litigation for the time
that we take to decide the appeal. And, of course,
district courts aren’t limited to the number of Rhines
stays in a single case. Here, for example, the district
court has issued two Rhines stays. If those stays had
triggered the collateral-order doctrine, we could have
slowed the litigation twice already with the possibility
of a third delay when the case ends in district court. In
these circumstances, we decline to single out Rhines
stays as a class of orders that would be resolved more
quickly by authorizing piecemeal appeals.16
16

Utah contends that these stays have “become the norm” for
Utah’s death row inmates. In fact, as Utah points out, seven Utah
inmates on death row (including Mr. Kell) have requested Rhines
stays. The district court denied two of these requests. Honie v.
Benzon, No. 2:07-cv-628 JAR, dkt. no. 120 (D. Utah. Dec. 13, 2017);
Lafferty v. Benzon, No. 2:07-cv-322 DB, dkt. no. 379 (D. Utah Oct.
30, 2015). And in a third case, the respondent did not object to a
Rhines stay. Carter v. Benzon, No. 2:02-cv-326 TS, dkt. nos. 567,
576 (D. Utah Mar. 1, 2016). We thus know only that a slight
majority of capital defendants in Utah have obtained Rhines stays
over an objection. Archuleta v. Benzon, No. 2: 07-cv-630 TC, dkt.
no. 107 (D. Utah Nov. 12, 2014); Kell v. Benzon, No. 2: 07-cv-359,
dkt. nos. 51, 258 (D. Utah Oct. 8, 2009, Nov. 16, 2017); Taylor v.

34a
Our dissenting colleague disagrees, stating that this
is not the relevant question. Dissent at 21. But we are
simply addressing the arguments presented by Utah
and our dissenting colleague. Both argue that
interlocutory review is essential to prevent delays in
enforcing the State’s criminal judgment. Indeed, while
challenging our characterization of the question, the
dissent insists that “[t]he delay—which is, in itself, a
win for Petitioner—is exactly what harms the State’s
interest.” Id. at 21. In short, the arguments by Utah
and our dissenting colleague require us to consider
whether piecemeal review would truly promote the
State’s interest in expeditious enforcement of its
criminal judgments or cause more delay.
Utah and the dissent also argue that waiting for a
final judgment might prevent any appeal of an order
granting a Rhines stay.17 They apparently assume that
Rhines stays will always become moot even when they
ultimately lead to a grant of habeas relief. But neither
Utah nor the dissent says why a Rhines stay would

Benzon, No. 2: 07-cv-194 TC, dkt no. 45 (D. Utah Feb. 14, 2008);
Menzies v. Benzon, No. 2:03-cv-902 TC, dkt. nos. 41, 47 (D. Utah
Oct. 27, 2004, May 5, 2005).
17

Rather than await a final judgment, the government could have
sought a writ of mandamus. See Gulfstream Aerospace Corp. v.
Mayacamas Corp., 485 U.S. 271, 288 n.13 (1988) (“Issuance of a
writ of mandamus will be appropriate in exceptional cases
involving stay orders.”); In re Kozeny, 236 F.3d 615, 619–20 (10th
Cir. 2000) (two-judge motions panel) (concluding that review of a
stay order was properly before the Court of Appeals on a petition
for mandamus).

35a
always become moot with a grant of habeas relief.18 See
Thompson v. Frank, 599 F.3d 1088, 1090 (9th Cir.
2010) (declining to apply the collateral-order doctrine
to a Rhines stay because it would be reviewable after
the final judgment). And we don’t ordinarily construct
arguments in support of appellate jurisdiction. See
United States ex rel. Ramseyer v. Century Healthcare
Corp., 90 F.3d 1514, 1518 n.2 (10th Cir. 1996) (“Our
duty to consider unargued obstacles to subject matter
jurisdiction does not affect our discretion to decline to
consider waived arguments that might have supported
such jurisdiction.” (emphasis in original)); see also
Raley v. Hyundai Motor Co., 642 F.3d 1271, 1275 (10th
Cir. 2011) (Gorsuch, J.) (“It is the appellant’s burden,
not ours, to conjure up possible theories to invoke our
legal authority to hear her appeal.”). Given our
reluctance to construct arguments for appellate
jurisdiction, we cannot assume—as Utah and the
dissent do—that review of a Rhines stay would become
moot if Mr. Kell were to obtain habeas relief.
Even if review of the grant of a Rhines stay would
eventually become moot, however, the final judgment
would certainly be appealable. See Alexander v. U.S.
Parole Comm’n, 514 F.3d 1083, 1097 (10th Cir. 2008)
(stating that a conditional writ of habeas corpus is
18

Utah devoted a single sentence to this issue, writing (with no
explanation) that “[t]he grant of a Rhines stay will always be moot
and unreviewable on plenary appeal.” Appellant’s Opening Br. at
6. In response, Mr. Kell argued that if the district court grants
relief on the stayed claim, the Court of Appeals could reverse the
entry of a Rhines stay and find the claim unexhausted. Appellee’s
Response Br. at 6. Utah failed to respond to this argument in its
reply brief.

36a
final, creating appellate jurisdiction); Burton v.
Johnson, 975 F.2d 690, 693-94 (10th Cir. 1993) (stating
that a conditional writ of habeas corpus was an
appealable final judgment). Because the district court’s
ultimate rulings on the habeas claims would be
reviewable after the final judgment, the collateralorder doctrine’s third element would remain
unsatisfied even if the grant of a Rhines stay were to
become moot. See Bean v. Dormire, 10 F.3d 538, 539
(8th Cir. 1993) (per curiam) (holding that the third
element of the collateral-order doctrine is unsatisfied in
a case involving the stay of a prisoner’s § 1983 action
because the prisoner’s underlying claims would be
reviewable later even if the stay itself were otherwise
unreviewable). The only difference is that waiting for
a final judgment would postpone the appeal. But as
discussed above, the delay results from a congressional
policy choice. See pp. 28–34, above.
***
The issues in Rhines stays are not categorically
separate from the merits and can be effectively
reviewed in an appeal from a final judgment. So two of
the three elements of the collateral-order doctrine are
absent, precluding appellate jurisdiction.
C. The Supreme Court’s consideration of the
merits in Rhines does not support
jurisdiction here.
Finally, Utah contends that appellate jurisdiction is
supported by the Supreme Court’s decision in Rhines to
reach the merits. This contention is based on two steps:

37a
1. Rhines v. Weber was appealed to the Eighth
Circuit as a collateral order. See Rhines v.
Weber, 346 F.3d 799, 800 (8th Cir. 2003) (per
curiam).
2. If the Eighth Circuit had lacked jurisdiction in
Rhines, the Supreme Court would not have
reached the merits.
We reject this contention.
In Rhines, appellate jurisdiction was not mentioned
in any of the briefs or in the Supreme Court’s opinion.
And “[w]hen a potential jurisdictional defect is neither
noted nor discussed in a federal decision, the decision
does not stand for the proposition that no defect
existed.” Ariz. Christian School Tuition Org. v. Winn,
563 U.S. 125, 144 (2011).
But it wouldn’t matter here even if the Supreme
Court had implicitly blessed application of the
collateral-order doctrine in Rhines. Before Rhines was
appealed to the Eighth Circuit, that court’s opinion in
Carmichael v. White had allowed stays of mixed habeas
petitions only in “truly exceptional circumstances.”
Carmichael v. White, 163 F.3d 1044, 1045 (8th Cir.
1998). So when Rhines was appealed to the Eighth
Circuit, the court applied the test that had been used
in Carmichael. See Rhines v. Weber, 346 F.3d 799, 800
(8th Cir. 2003) (per curiam) (citing Carmichael, 163
F.3d at 1045).
When Rhines later went to the Supreme Court, the
parties disagreed over the validity of the Eighth
Circuit’s test and the extent of a district court’s
authority to stay, consider, or dismiss mixed habeas

38a
petitions. See Rhines v. Weber, 544 U.S. 269, 273
(2005). The Supreme Court resolved this disagreement
in Rhines by creating a new test for stays when some of
the habeas claims are unexhausted. See id. at 277–78.
Given the Supreme Court’s creation of a new test in
Rhines, our consideration of Utah’s appeal would entail
• the application of the Rhines factors rather than
the previous Eighth Circuit test and
• the appropriateness of a stay rather than the
district court’s authority to stay, consider, or
dismiss mixed habeas petitions.
These issues did not exist when Rhines was appealed
to the Eighth Circuit. So even if the Supreme Court
had silently concluded that the collateral-order doctrine
applies to stays granted under the test in Carmichael,
that conclusion would not apply to an appeal
addressing the appropriateness of a stay based on the
Rhines factors. See Howard v. Norris, 616 F.3d 799,
802–03 (8th Cir. 2010) (noting that the Eighth Circuit’s
pre-Rhines rationale for applying the collateral-order
doctrine to stays of habeas proceedings was “no longer
applicable”). As a result, Rhines’s procedural posture
supplies no meaningful guidance on our jurisdictional
issue.
5. Conclusion
We lack appellate jurisdiction. A Rhines stay is not
a final decision, and two elements of the collateralorder doctrine are not met. This doctrine applies only
when the order conclusively decides an important
question, separate from the merits, that would be

39a
effectively unreviewable in a direct appeal from a final
judgment. But when Rhines stays are viewed
categorically, the issues are generally inseparable from
the merits and reviewable after entry of the final
judgment. We thus lack appellate jurisdiction and
dismiss the appeal.

40a
17-4191, Kell v. Benzon
BALDOCK, Circuit Judge, dissenting:
Today, this Court holds we do not have appellate
jurisdiction over grants of Rhines stays in capital cases.
In so holding, the Court fails to see the forest for the
trees. Despite the Supreme Court’s repeated
admonitions that we should give 28 U.S.C. § 1291 a
“practical” rather than a “technical” construction, the
Court takes an overly technical view of § 1291 by
neglecting to put the grant of a Rhines stay in the
proper context of AEDPA and the policy behind
enforcing a stringent final judgment rule. The Court
further ignores salient Supreme Court precedent about
the collateral order doctrine and severely understates
a state’s important interest in executing its sentence of
death without delay—in this case, against Petitioner
Troy Kell, who brutally murdered a fellow inmate
almost twenty-five years ago. For these reasons, I
cannot join the Court’s opinion.
I.
The Court’s opinion brings to mind the 1989 Report
of the Ad Hoc Committee on Federal Habeas Corpus in
Capital Cases, which was formed by Chief Justice
Rehnquist and chaired by Justice Powell. Judicial
Conference of the U.S., Ad Hoc Comm. on Fed. Habeas
Corpus in Capital Cases, Comm. Report and Proposal
(Aug. 23, 1989) [hereinafter Powell Comm. Report]. The
Committee determined federal habeas law “has led to
piecemeal and repetitious litigation, and years of delay
between sentencing and a judicial resolution as to
whether the sentence was permissible under the law.”

41a
Id. at 1. The Committee specifically noted: “The lack of
coordination between the federal and state legal
systems often results in inefficient and unnecessary
steps in the course of litigation.” Id. at 2.
Against this backdrop, Congress passed the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA)—the long title of which is “An Act to deter
terrorism, provide justice for victims, provide for an
effective death penalty, and for other purposes.” Pub. L.
No. 104-132, 110 Stat. 1214 (1996) (emphasis added).
In providing for an effective death penalty, AEDPA
aims to “reduce delays in the execution of state and
federal criminal sentences, particularly in capital
cases.” Rhines v. Weber, 544 U.S. 269, 276 (2005)
(citing Woodford v. Garceau, 538 U.S. 202, 206 (2003)).
Toward this end, AEDPA imposes a one-year statute of
limitations on the filing of a federal habeas petition. 28
U.S.C. § 2244(d). Another purpose of AEDPA is to
promote comity by “encourag[ing] petitioners to seek
relief from state courts in the first instance.” Rhines,
544 U.S. at 276. AEDPA achieves this goal by “tolling
the 1-year limitations period while a ‘properly filed
application for State post-conviction or other collateral
review’ is pending.” Id. (citing 28 U.S.C. § 2244(d)(2)).
Prior to the passage of AEDPA, a district court was
required to dismiss a federal habeas petition that
included both exhausted and unexhausted claims—that
is, a “mixed” petition. Rose v. Lundy, 455 U.S. 509, 510
(1982). After dismissal, a petitioner could either
resubmit the habeas petition with only exhausted
claims or exhaust his claims in state court and later file
a new petition in federal court. Id. The Powell

42a
Committee specifically identified this “moving back and
forth between the federal and state systems in the
process of exhausting state remedies” as one of the
aforementioned “inefficient and unnecessary steps in
the course of litigation.” Powell Comm. Report, supra
page 1, at 2. After Congress passed AEDPA, Lundy’s
total exhaustion rule created a problem when
petitioners filed mixed petitions in federal court.
Because of the new one-year statute of limitations,
dismissal of mixed petitions pursuant to Lundy likely
foreclosed the possibility of federal review. Rhines, 544
U.S. at 275. To prevent this result, district courts
began staying, instead of dismissing, the federal
habeas case to allow the petitioner to exhaust his
claims in state court. Id. at 276. The district court
would then lift the stay after the petitioner exhausted
his claims and resume federal proceedings. Id. at
276–77.
In Rhines, the Supreme Court upheld this stay-andabeyance procedure but acknowledged “[s]tay and
abeyance, if employed too frequently, has the potential
to undermine” the purposes of AEDPA. Id. at 277.
Rather than reducing delays in the execution of a
sentence, stay and abeyance “allow[s] a petitioner to
delay the resolution of the federal proceedings.” Id. And
rather than encouraging petitioners to first seek relief
in state court, stay and abeyance “decreas[es] a
petitioner’s incentive to exhaust all his claims in state
court prior to filing his federal petition.” Id. Stay and
abeyance potentially undermines AEDPA’s purposes
even more in capital cases, for capital petitioners alone
have every incentive “to prolong their incarceration and
avoid execution of the sentence of death.” Id. at 277–78;

43a
see also Lundy, 455 U.S. at 520 (“The [non-capital]
prisoner’s principal interest, of course, is in obtaining
speedy federal relief on his claims.”). Thus, the
Supreme Court cautioned that stay and abeyance of
mixed petitions “should be available only in limited
circumstances.” Id. at 277 (emphasis added).
Specifically, stay and abeyance is only available if “[1]
the petitioner had good cause for his failure to exhaust,
[2] his unexhausted claims are potentially meritorious,
and [3] there is no indication that the petitioner
engaged in intentionally dilatory litigation tactics.” Id.
at 278.
II.
In 1994, Petitioner Troy Kell, a white supremacist
incarcerated in state prison, stabbed African-American
inmate Lonnie Blackmon sixty-seven times.
Petitioner’s attack lasted approximately two and a half
minutes, during which Petitioner walked away twice
only to return again to Blackmon’s writhing body to
continue to stab him. Blackmon, who was handcuffed
and held down by Petitioner’s accomplice during the
attack, bled to death. The facts of the murder have
never been in dispute, as the murder was captured on
prison security video. Petitioner proceeded to trial, and
in 1996, a jury found Petitioner guilty of aggravated
murder and sentenced him to death. In 2002, the
Supreme Court of Utah upheld his conviction and
sentence on direct appeal. State v. Kell, 61 P.3d 1019
(Utah 2002). Petitioner then pursued state postconviction relief. The post-conviction court dismissed
the petition, and the Supreme Court of Utah upheld
this dismissal in 2008. Kell v. State, 194 P.3d 913 (Utah

44a
2008). In January 2009, Petitioner filed a pro se motion
for relief under Utah Rule of Civil Procedure 60(b),
alleging ineffective assistance of his appointed postconviction counsel. Later in 2009, Petitioner, through
appointed counsel, filed a federal habeas petition.
Shortly thereafter, Petitioner sought and received a
Rhines stay in his federal case while he pursued his
claims in state court. In 2012, Petitioner’s state claims
were denied. Kell v. State, 285 P.3d 1133 (Utah 2012).
Petitioner’s federal case resumed after the threeyear Rhines stay. In 2013, Petitioner filed an amended
habeas petition. In this petition filed seventeen years
after his conviction, Petitioner raised the new claim
that the trial court gave an unconstitutional
supplemental jury instruction that shifted the burden
of proof onto Petitioner during the penalty phase
deliberations. In support, Petitioner attached three
juror declarations signed eight months before he filed
his amended petition. Two jurors recalled the trial
judge speaking to the jury after deliberations began.
The other juror recalled, in more specificity, that when
the judge spoke to the jurors during deliberations, he
said “that [Petitioner’s] attorney’s [sic] had to show us
that [Petitioner’s] life should be spared.” ROA Vol. IV,
666. Petitioner noted “[t]here are no indications in the
trial transcripts of a question from the jury after the
beginning of deliberations, either during the guilt or
penalty phases.” Id. Petitioner concluded: “The error
that resulted from [the trial judge’s] ex parte response
which shifted the burden of proof for the entire penalty
proceeding away from the State and onto [Petitioner],
was a prejudicial error of constitutional magnitude,
requiring reversal.” Id. at 666–67.

45a
Over four and a half years after filing his amended
habeas petition, Petitioner filed a motion for a second
Rhines stay so that he could exhaust his supplementalinstruction claim (and another claim not relevant to
this appeal) in state court.1 In November 2017, the
district court granted the stay, holding Petitioner
satisfied the three Rhines elements because (1) there
was good cause for not previously exhausting the
supplemental-instruction claim; (2) the claim was
potentially meritorious; and (3) there was no indication
Petitioner engaged in abusive or dilatory tactics. As to
good cause, Petitioner argued he did not previously
exhaust the supplemental-instruction claim because
his post-conviction counsel was ineffective and failed to
interview any jurors. In addressing this claim, the
district court first explained that neither Supreme
Court nor Tenth Circuit precedent has defined “good
cause” in the Rhines context. As a result, some district
courts have held “good cause in the Rhines context is
akin to good cause to excuse procedural default in
federal court,” while others have given it a “more
expansive and equitable reading.” ROA Vol. VII, 1725.
Relying on a Ninth Circuit opinion and two District of
Utah cases, the district court adopted the latter
standard that “good cause for a Rhines stay cannot be
any more demanding than a showing of cause for

1

The Court states that Petitioner requested a stay in 2014. Maj.
Op. at 15 n.8. Just to be clear, this “request” consisted of one
sentence buried in a 208-page reply brief to his petition, which
obviously has not been ruled on. ROA Vol. VI, 1278. The fact
remains that Petitioner did not file a motion to stay regarding the
issue underlying this appeal until 2017—over four and a half years
after filing his amended habeas petition.

46a
procedural default under Martinez v. Ryan, 566 U.S. 1
(2012), and, in fact, may be less demanding.” Id. at
1726 (citing Blake v. Baker, 745 F.3d 977 (9th Cir.
2014); Lafferty v. Crowther, No. 2:07-CV-322, ECF No.
379 (D. Utah Oct. 30, 2015); Archuleta v. Crowther, No.
2:07-CV-630, ECF No. 107 (D. Utah Nov. 12, 2014)).
After establishing the standard, the court concluded
that Petitioner’s “post-conviction counsel’s deficient
performance constitutes cause under Rhines.” Id. at
1727.
Regarding the potential merit of the supplementalinstruction claim, the district court did not consider the
State’s arguments that the claim would be time-barred
or procedurally barred in state court. Invoking notions
of “federalism” and “comity,” the court held the state
courts must “have the opportunity to make those
procedural decisions.” Id. at 1728–29. The court then
explained Petitioner’s claim and apparently held it was
potentially meritorious. The district court’s
analysis—which, again, purports to be about whether
the supplemental-instruction claim was potentially
meritorious—reads in full:
Counsel in [Petitioner’s] state habeas
proceedings admitted that he was unaware of
this issue because he failed to speak with any of
the jurors, and that there was no strategic
reason for his failure to do so. Because counsel
was unaware of the issue, he failed to raise this
claim to the state court, meaning that
[Petitioner] has been denied the opportunity to
have this potentially significant claim reviewed
by the state court. Counsel’s failure to raise this

47a
potentially meritorious claim constitutes good
cause under Rhines.
Id. at 1732 (citation omitted). In other words, the
district court concluded Petitioner’s claim was
potentially meritorious without analyzing whether the
claim was potentially meritorious. Instead, the district
court looked to Petitioner’s counsel’s failure to
investigate and raise the claim in state court—
considerations not at all relevant to whether
Petitioner’s constitutional rights were potentially
violated by an alleged ex parte supplemental jury
instruction—and confusingly determined this failure
constitutes “good cause,” a conclusion the court had
already reached in element one.
Lastly, the district court held there was “no
indication that [Petitioner] has engaged in intentional
or abusive dilatory litigation tactics.” Id. at 1733. The
court reasoned federal proceedings were stayed until
2012, and Petitioner had followed the case
management schedule. Rejecting the State’s argument
that nothing prevented Petitioner from bringing the
claim in state court earlier, the court held Petitioner
satisfied the third Rhines element.
After determining all three elements were satisfied,
the district court issued the stay. Only then did
Petitioner file a petition in state court raising the
supplemental-instruction claim. Not surprisingly, the
state trial court has since rejected this claim as both
time and procedurally barred. The case is now pending
before the Supreme Court of Utah. Kell v. Benzon, No.
20180788 (appeal docketed Oct. 1, 2018).

48a
In the meantime, the State requested that the
district court certify for immediate appeal its grant of
a second Rhines stay under 28 U.S.C. § 1292(b). The
district court denied the State’s request because “there
is not sufficient basis to find a difference of opinion on
which [good cause] standard should apply”—a
conclusion that is simply impossible to reconcile with
the court’s previous order noting district courts have
applied different “good cause” standards. Doc. 279, at
4. The State also sought to appeal the stay pursuant to
28 U.S.C. § 1291, arguing (1) the standard for “good
cause” under Rhines should be the same as “cause” to
overcome procedural default and (2) the district court
abused its discretion under all three Rhines elements
in granting the stay. Before we can reach the merits of
these arguments, we must of course have jurisdiction
to do so. Because this is an interlocutory appeal and
the district court oddly enough saw fit to deny the
State’s request for certification of appeal under
§ 1292(b), the only potential basis for this Court to
exercise jurisdiction is § 1291 by way of the collateral
order doctrine.2

2

I preface my discussion of the collateral order doctrine by noting
Rhines itself was appealed to the Eighth Circuit pursuant to the
collateral order doctrine. Rhines v. Weber, 346 F.3d 799, 800 (8th
Cir. 2003) (per curiam) (“We have jurisdiction under the collateral
order doctrine to review an interlocutory order holding a habeas
petition in abeyance pending exhaustion of state court remedies.”),
vacated on other grounds, 544 U.S. 269 (2005). The Supreme Court
granted certiorari in the case and, without mentioning the
jurisdictional issue, proceeded to the merits. Rhines, 544 U.S. 269.
Even more, the Supreme Court remanded the case to the Eighth
Circuit to exercise jurisdiction and adjudicate the case in
accordance with the Supreme Court’s opinion. Id. at 279.

49a
III.
This Court has “jurisdiction of appeals from all final
decisions of the district courts of the United States[.]”
28 U.S.C. § 1291. Encompassed in section 1291’s
definition of “final decisions” is “a ‘small class’ of
collateral rulings that, although they do not end the
litigation, are appropriately deemed ‘final.’” Mohawk
Indus., Inc. v. Carpenter, 558 U.S. 100, 106 (2009). This
“small class” includes decisions that “finally determine
claims of right separable from, and collateral to, rights
asserted in the action, too important to be denied review
and too independent of the cause itself to require that
appellate consideration be deferred until the whole case
is adjudicated.” Cohen v. Beneficial Indus. Loan Corp.,
337 U.S. 541, 546 (1949) (emphasis added). The
Supreme Court “has long given [section 1291] this
Federal courts, including the Supreme Court, “have an
independent obligation to determine whether subject-matter
jurisdiction exists, even in the absence of a challenge from any
party.” Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006). The
Supreme Court has undertaken this independent obligation and
vigilantly guarded the exclusivity of the collateral order doctrine.
See Will v. Hallock, 546 U.S. 345, 350 (2006) (“[W]e have meant
what we have said; although the Court has been asked many times
to expand the ‘small class’ of collaterally appealable orders, we
have instead kept it narrow and selective in membership.”). In
Will, for example, after granting certiorari on the merits of an
issue, the Supreme Court vacated and remanded to the Court of
Appeals to dismiss for lack of jurisdiction because the underlying
order was not immediately appealable under the collateral order
doctrine. Id. at 349. At the same time, as this Court points out, the
Supreme Court’s prior exercise of jurisdiction and subsequent
remand in Rhines do not necessarily stand for the proposition that
the stay was immediately appealable under the collateral order
doctrine. See Hagans v. Lavine, 415 U.S. 528, 535 n.5 (1974).

50a
practical rather than a technical construction,” id.
(emphasis added), and has emphasized the class of
collaterally appealable orders is “narrow and selective
in its membership,” Will, 546 U.S. at 350. As the
Court’s opinion explains, to fall within this narrow
class of decisions, the order must (1) be “conclusive”;
(2) “resolve important questions separate from the
merits”; and (3) be “effectively unreviewable on appeal
from the final judgment in the underlying action.”
Swint v. Chambers Cty. Comm’n, 514 U.S. 35, 41
(1995). As no question exists whether the first element
is satisfied, I turn to the second and third elements.3
A.
The second collateral order doctrine element
requires the order to “resolve important questions
separate from the merits.” Swint, 514 U.S. at 41. This
separateness requirement “is a distillation of the
principle that there should not be piecemeal review of
‘steps towards final judgment in which they will

3

An order is “conclusive” when “nothing in the subsequent course
of the proceedings in the district court . . . can alter the court’s
conclusion.” See Mitchell v. Forsyth, 472 U.S. 511, 527 (1985). This
element is plainly met here. Nothing was tentative about the
determination that Petitioner’s federal proceedings would halt
while Petitioner exhausted his supplemental-instruction claim in
state court. A grant of a Rhines stay is only subject to revision in
the same way every order is subject to revision. See Moses H. Cone
Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 12 & n.14
(1983). This indicates “nothing in the subsequent course of the
proceedings in the district court . . . can alter the court’s
conclusion” that Petitioner was entitled to a Rhines stay.
Accordingly, the district court’s grant of a Rhines stay is
conclusive.

51a
merge.’” Moses H. Cone, 460 U.S. at 12 n.13. The Court
and I differ on exactly what must be separate in order
to satisfy this element. Whereas this Court holds the
entire collateral order must be completely separate
from the merits, I contend that at least one issue
involved in granting a Rhines stay must be completely
separate from the merits. This is clearly what the
Supreme Court has required. E.g., Microsoft Corp. v.
Baker, 137 S. Ct. 1702, 1708 n.3 (2017) (stating the
decision must “resolve important issues ‘completely
separate from the merits’” (emphasis added)); Will, 546
U.S. at 349 (stating the order must “resolve an
important issue completely separate from the merits of
the action” (emphasis added)); Sell v. United States,
539 U.S. 166, 176 (2003) (stating a decision is
“appealable as a collateral order when it . . . resolves an
important issue completely separate from the merits of
the action” (emphasis added) (brackets and quotations
omitted)); Quackenbush v. Allstate Ins. Co., 517 U.S.
706, 712 (1996) (stating the order must “conclusively
determine a disputed question that is completely
separate from the merits of the action” (emphasis
added) (brackets and quotations omitted)); Johnson v.
Jones, 515 U.S. 304, 310–11 (1995) (stating the order
must “resolve an important issue completely separate
from the merits of the action” (emphasis added)); Dig.
Equip. Corp. v. Desktop Direct, Inc., 511 U.S. 863, 867
(1994) (stating the decision must “resolve important
questions completely separate from the merits”
(emphasis added)); Richardson-Merrell, Inc. v. Koller,
472 U.S. 424, 431 (1985) (stating the order must
“resolve an important issue completely separate from
the merits of the action” (emphasis added)); Coopers &
Lybrand v. Livesay, 437 U.S. 463, 468 (1978) (stating

52a
“the order must . . . resolve an important issue
completely separate from the merits of the action”
(emphasis added)); Abney v. United States, 431 U.S.
651, 658 (1977) (stating the decision in Cohen “resolved
an issue completely collateral to the cause of action
asserted” (emphasis added)).
Of utmost importance, in each of these cases,
“completely separate” modified “issues,” “an issue,” “a
question,” and “questions,” not “an order.” Therefore,
the only reasonable conclusion to be reached is that
there must be “an issue” that is “completely separate”
from the merits of the action. Such a conclusion is
consistent with the Supreme Court’s explicit rejection
of the argument that there must be no overlap
whatsoever between a collateral order and the merits
of a claim. Mitchell, 472 U.S. at 529 n.10. In Mitchell,
the Supreme Court explained that if “any factual
overlap between a collateral issue and the merits of the
plaintiff’s claim is fatal to a claim of immediate
appealability,” then denials of claims of double
jeopardy and absolute immunity could not be appealed,
for such claims necessarily require an inquiry into a
plaintiff’s factual allegations. Id. But these claims are
appealable pursuant to the collateral order doctrine.
Nixon v. Fitzgerald, 457 U.S. 731, 742–43 (1982);
Abney, 431 U.S. at 662. With this understanding, the
Supreme Court held an order denying qualified
immunity is immediately appealable. Mitchell, 472
U.S. at 530.
The Court today understands this to contravene the
requirement that we must view the class of orders as a
whole. To be clear, I absolutely agree with the well-

53a
settled requirement that we must focus on the class of
orders. We cannot focus on the class of orders, however,
without looking to the issues the class of orders
generally raise. Here, we must look to Rhines-stayspecific issues. Looking to Rhines-stay-specific issues is
wholly different than analyzing the issues on a case-bycase basis. At no point in this dissent do I advocate for
analyzing case-specific issues—something the Court
and I agree is unacceptable. In sum, we must look to
issues that orders granting Rhines stays generally
raise (as opposed to the issues this order granting a
Rhines stay raises); if one or more of these issues is
completely separate from the merits, this element is
satisfied. From what I understand, the Court thinks we
must look to issues that any order granting a Rhines
stay could hypothetically raise; if any of these issues
overlap with the merits, this element is not satisfied.
This understanding does not comport with Supreme
Court precedent, nor our own. Mitchell, 472 U.S. at 529
n.10; United States v. Bolden, 353 F.3d 870, 876 (10th
Cir. 2003) (assuming without deciding an issue
implicated in an order could overlap with the
underlying merits but that “on the whole such orders
. . . satisfy the separability requirement”).
The requirement that there be “an issue” that is
“completely separate” from the merits is undoubtedly
met in this case. In fact, at least three such issues are
involved in granting a Rhines stay. The first, which is
a purely legal issue, is whether the appropriate
standard for “good cause” is akin to “cause” to overcome
procedural default or is something less stringent.
“Cause” to overcome procedural default requires a
petitioner to show “something external to the

54a
petitioner, something that cannot fairly be attributed
to him” or his counsel prevented the petitioner from
raising a claim. Coleman v. Thompson, 501 U.S. 722,
753 (1991). Neither we nor the Supreme Court has
applied this definition or otherwise defined “good
cause” in the Rhines context. In dicta, however, the
Supreme Court has stated that “[a] petitioner’s
reasonable confusion about whether a state filing
would be timely will ordinarily constitute ‘good cause’
for him to file in federal court.” Pace v. DiGuglielmo,
544 U.S. 408, 416 (2005). This statement could be
interpreted as indicating a lesser standard than
“cause” to overcome procedural default is appropriate
for “good cause” in the Rhines context. Accordingly,
district courts are divided on what standard to use.
Compare Hernandez v. Sullivan, 397 F. Supp. 2d 1205,
1207 (C.D. Cal. 2005) (“[T]he Court deems it
appropriate to look to procedural default case law for
guidance in determining whether Petitioner has
demonstrated the requisite ‘good cause’ for failing to
exhaust his unexhausted claims prior to filing this
habeas action.”), with Rhines v. Weber, 408 F. Supp. 2d
844, 849 (D.S.D. 2005) (“[T]his court believes that the
Supreme Court suggested a more expansive definition
of ‘good cause’ in Pace and Rhines than the showing
needed for ‘cause’ to excuse a procedural default.”).
This issue is critically important because the resolution
of the standard could be the deciding factor in many
cases.
Unfortunately, the Court today sidesteps the State’s
purely legal argument about the “good cause” standard
and unnecessarily criticizes the State’s arguments by
noting we must look to categories of cases rather than

55a
the particular arguments raised in an individual case.
Maj. Op. at 12–15. But literally every grant of a Rhines
stay, not just this particular grant of a Rhines stay,
must decide what the appropriate standard for
determining “good cause” is.4 Ultimately, by giving this
issue short shrift, the Court avoids acknowledging the
obvious: this is a purely legal issue that has no overlap
with the merits of the case. In other words, this issue
is most assuredly “a legal issue that can be decided
with reference only to undisputed facts and in isolation
from the remaining issues of the case.” Mitchell, 472
U.S. at 530 n.10.
The second issue that does not overlap with the
merits is whether the district court can consider state
time and procedural bars in determining whether a
claim is “potentially meritorious.” In this case, the
district court answered in the negative: “[I]n
considering whether [Petitioner’s] claims are
potentially meritorious, this court will not address
possible state court time and procedural bars, but will
leave the determination of the procedural posture of

4

Given a district court must hold “good cause” exists (which
requires defining the “good cause” standard) in order to issue a
Rhines stay, this fact is not up for debate. The Court “see[s] the
issue differently” because if the Court proceeded to the merits, we
might not reach the “good cause” issue and instead rule on other
grounds. Maj. Op. at 14–15. But the question is not whether this
Court would necessarily have to rule on the issue. At the risk of
sounding like a broken record, the question is whether the district
court’s order resolves an issue that is completely separate from the
merits. E.g., Will, 546 U.S. at 349. In discussing whether this
Court would have to decide the “good cause” standard, the Court
has taken the reader down an irrelevant rabbit hole.

56a
the claims to the state court.” ROA Vol. VII, 1729. The
district court supported its holding with statements
from a district court order, two wholly inapposite outof-circuit opinions, and one Tenth Circuit opinion that
does not address this issue. Id. at 1728–29 (citing
Lafferty v. Crowther, 2015 WL 6875393 (D. Utah 2015);
Simpson v. Camper, 927 F.2d 392, 393 (8th Cir. 1991);
Pike v. Guarino, 492 F.3d 61, 74 (1st Cir. 2007);
Fairchild v. Workman, 579 F.3d 1134, 1153 (10th Cir.
2009)). The district court’s grasp at non-binding (and
unpersuasive) authority to support its position is
understandable because, again, neither the Supreme
Court nor the Tenth Circuit has weighed in on whether
the refusal to address possible state court time and
procedural bars is valid. Like the question of the good
cause standard, this purely legal issue is clearly
completely separate from the merits of a petitioner’s
claim.
Additionally, the third Rhines element, which
requires a court to consider whether the petitioner
engaged in intentionally dilatory litigation tactics, does
not overlap with the merits. While this element does
not appear to present a purely legal issue, the facts
involved are completely separate from the facts
involved in a petitioner’s unexhausted claim. At this
point, we have three issues, two of which are purely
legal, that have no overlap with the merits of a
petitioner’s claim—none whatsoever. The Court today
fails to acknowledge this reality.
The Court instead focuses only on two issues that it
asserts overlap with the merits: the application of the
“good cause” standard to the facts of the case and

57a
whether the claim has “potential merit.” This latter
issue, which is “a fraction of a fraction” of the total
inquiry in issuing a Rhines stay, undoubtedly overlaps
with the merits. Rep. Br. at 5. The former issue’s
overlap with the merits, however, is questionable. The
Court’s assertion that the application of the good cause
standard will “often overlap with a court’s preliminary
assessment of the merits” seems to me to be an
exaggeration. Maj. Op. at 18. The Court points to two
situations in which this could happen: if a petitioner
raises a Brady claim and if a petitioner raises a
different claim of ineffective assistance of counsel. As
explained above, I do not understand Supreme Court
precedent to require us to engage in a hypothetical
inquiry of all possible permutations of claims that could
be brought in order to determine whether an order is
appealable pursuant to the collateral order doctrine.
Accordingly, I remain focused on the issues grants of
Rhines stays generally raise, rather than every issue a
grant of a Rhines stay could hypothetically raise.
Even though the district court must consider some
factual allegations in a petition before granting a
Rhines stay (a duty that the district court failed
miserably to perform in this case), a grant of a Rhines
stay undoubtedly “resolve[s] important issues
‘completely separate from the merits.’” Microsoft Corp.,
137 S. Ct. at 1708 n.3. Accordingly, the second element
of the collateral order doctrine is satisfied.5

5

In its discussion of the second element, the Court asserts: “if the
district court enters multiple Rhines stays, we could face three or
more appeals with overlapping issues.” Maj. Op. at 8. I understand
that if Rhines stays are appealable and multiple Rhines stays are

58a
B.
The third collateral order doctrine element requires
the order to be “effectively unreviewable on appeal
from the final judgment in the underlying action.”
Swint, 514 U.S. at 41. This element, too, is undoubtedly
met. At no other point will this Court have the
opportunity to decide the important issues at stake in
granting a Rhines stay. Of course, if the Petitioner
obtains relief from the Utah Supreme Court, the
Rhines stay issues will never again arise in this case
because Petitioner will be granted a new state trial. If
the Utah Supreme Court denies relief and then the
district court denies habeas relief on the previously
unexhausted claim, the issues would be moot on
appeal. Petitioner posits the State could appeal the
Rhines stay issues after final judgment if he ultimately
obtains habeas relief on the previously unexhausted
claim. How can this possibly be? Say, the Petitioner
prevails in the district court and the State appeals,
arguing among other things that the district court
entered, this Court could face three or more appeals. But the Court
does not clarify when these potential “three or more appeals” would
concern “overlapping issues.” Even where a district court issues
multiple Rhines stays, each Rhines stay concerns different claims
by a petitioner and therefore different issues. To illustrate, a
district court issues a Rhines stay on claim x, allowing the
petitioner to exhaust the claim in state court. After the petitioner
exhausts claim x in state court and returns to federal court, the
district court is not going to issue another Rhines stay for the
purpose of allowing the petitioner to exhaust claim x. If there is a
second Rhines stay, it would be issued for the petitioner to exhaust
claim y. If both of these Rhines stays are appealed and then the
final judgment is appealed, the “same issues” would not be before
this Court three or more times.

59a
abused its discretion in granting a Rhines stay years
earlier. Would the district court’s grant of a Rhines stay
not be moot at that point? What relief could the court
possibly grant the State if it prevails on that claim?
None! That particular controversy is over.
The Court points out that “the district court’s
ultimate rulings on the habeas claims would be
reviewable after the final judgment.” Maj Op. at 38–39.
Of course. But that certainly does not mean “the
collateral-order doctrine’s third element would remain
unsatisfied even if the grant of a Rhines stay were to
become moot.” Id. at 39. We are not concerned here
with whether other issues involved in this case, such as
“the district court’s ultimate rulings on the habeas
claims,” would be reviewable on appeal of the final
judgment; we are concerned with whether the issues
involved in granting a Rhines stay are reviewable on
appeal of the final judgment.6

6

The Court also states Petitioner could have filed a writ of
mandamus rather than await final judgment. Maj. Op. at 35 n.17.
But a writ of mandamus is not the relief the Supreme Court
contemplated in Rhines. The standard for issuing a writ of
mandamus is higher than the abuse of discretion standard. In re
Cooper Tire & Rubber Co., 568 F.3d 1180, 1186–87 (10th Cir.
2009). In fact, we have explicitly stated that “[t]here must be more
than what we would typically consider to be an abuse of discretion
in order for the writ to issue.” Id. at 1186. In Rhines, however, the
Supreme Court stated three times that the standard of review for
Rhines stays is “abuse of discretion.” Rhines, 544 U.S. at 277–79.
Accordingly, the Supreme Court clearly contemplated Rhines stays
to be reviewed on direct appeal, rather than through a writ of
mandamus.

60a
Even assuming a court has the opportunity to
review a district court’s issuance of a Rhines stay after
final judgment—a proposition I vehemently disagree
with—we must then look to the importance of the
interests at stake. Whether an order is “effectively
unreviewable” necessarily requires “a judgment about
the value of the interests that would be lost through
rigorous application of a final judgment requirement.”
Mohawk Indus., Inc, 558 U.S. at 107 (quoting Dig.
Equip. Corp., 511 U.S. at 878–79). “That a ruling ‘may
burden litigants in ways that are only imperfectly
reparable by appellate reversal of a final district court
judgment . . . has never sufficed.’” Id. (quoting Dig.
Equip. Corp., 511 U.S. at 872). “Instead, the decisive
consideration is whether delaying review until the
entry of final judgment ‘would imperil a substantial
public interest’ or ‘some particular value of a high
order.’” Id. (quoting Will, 546 U.S. at 352–53)
(emphasis added). The certain “high order” values the
Supreme Court has accepted as being important
enough to not delay review until the entry of final
judgment include: “honoring the separation of powers,
preserving the efficiency of government and the
initiative of its officials, respecting a State’s dignitary
interests, and mitigating the government’s advantage
over the individual.” Will, 546 U.S. at 352–53.
The “decisive” question, then, is just this: does
delaying review of the Rhines stay until after a
petitioner exhausts his claims in state court and
returns to federal court “imperil a substantial public
interest” or “some particular value of a high order”? See
Mohawk Indus., Inc., 558 U.S. at 107. The answer is a
resounding yes. The “substantial public interest” or

61a
“value of a high order” at issue when a Rhines stay is
granted is a state’s right to enforce its criminal
judgments, particularly in capital cases. “Our federal
system recognizes the independent power of a State to
articulate societal norms through criminal law; but the
power of a State to pass laws means little if the State
cannot enforce them.” McClesky v. Zant, 499 U.S. 467,
491 (1991). In fact, the Supreme Court has held a
state’s “sovereign power to enforce the criminal law” is
an interest of “great weight.” In re Blodgett, 502 U.S.
236, 239 (1992) (per curiam). States suffer “severe
prejudice” when they are prevented from exercising
this power. Id. (holding Washington “sustained severe
prejudice by [a] 2½-year stay of execution”). In
particular, “the criminal law is deprived of much of its
deterrent effect.” Teague v. Lane, 489 U.S. 288, 309
(1989); see also McClesky, 499 U.S. at 491 (discussing
the need for finality in criminal cases). Further, the
state loses legitimacy, as “[t]he resulting lack of finality
undermines public confidence in our criminal justice
system.” Powell Comm. Report, supra page 1, at 1.
Not only has the Supreme Court put “great weight”
on a state’s power to enforce its criminal law, Congress
has also prioritized this power with the passage of
AEDPA. One of the driving forces in passing AEDPA
was to “reduce delays in the execution of state and
federal criminal sentences, particularly in capital
cases.” Rhines, 544 U.S. at 276 (emphasis added).
AEDPA has no teeth if federal habeas law still leads “to
piecemeal and repetitious litigation, and years of delay
between sentencing and a judicial resolution as to
whether the sentence was permissible under law,” as it
has in this case and potentially many others. Powell

62a
Comm. Report, supra page 1, at 1. Supreme Court
precedent and AEDPA indicate a state’s ability to
enforce its criminal judgments without delay is a
“substantial public interest” or “value of a high order”
that ranks among “honoring the separation of powers,
preserving the efficiency of government and the
initiative of its officials, respecting a State’s dignitary
interests, and mitigating the government’s advantage
over the individual.” Will, 546 U.S. at 352–53.
The Court today does not dispute the importance of
the issues at stake. Indeed, this would be difficult to do
in light of the fact that this Court has previously held
an appeal concerning an anti-SLAPP statute, which
aims to “nip harassing litigation in the bud,” was too
important to be denied review until entry after final
judgment. Los Lobos Renewable Power, LLC v.
Americulture, LLC, 885 F.3d 659, 666–67 (10th Cir.
2018). Instead, the Court focuses on “whether
interlocutory review of Rhines stays would speed
review or slow it through piecemeal review.” Maj. Op.
at 30. This is not the question under the third element
of the collateral order doctrine.7 Again, the “decisive”

7

Even so, the Court’s analysis of this question is divorced from
reality. I suggest if this court could review Rhines stays, the court
might hold, for example, that “good cause” is akin to “cause” under
procedural default. Or perhaps the court would hold that district
courts’ refusals to take state time and procedural bars into account
in deciding whether a claim has potential merit does not comport
with AEDPA or Rhines’s caution that stays be granted in only
“limited circumstances.” It would seem to me that if either of those
very possible things happened, interlocutory review of Rhines stays
would undoubtedly speed review over time, given district courts
have issued multiple stays based on a lower standard of “good

63a
question is whether delaying review of the Rhines stay
until after a petitioner exhausts his claims in state
court and returns to federal court “imperil a
substantial public interest” or “some particular value
of a high order.” See Mohawk Indus., Inc., 558 U.S. at
107.
Let us not forget: Petitioner stabbed Blackmon to
death almost twenty-five years ago; he was sentenced
to death over twenty-two years ago; his direct appeals
ended over sixteen years ago; his state post-conviction
proceedings ended over ten years ago; his federal
habeas petition was filed nearly ten years ago; he
received his first Rhines stay, which lasted three years,
over nine years ago; and his amended petition was filed
over six years ago. The State of Utah most certainly
has an undeniable interest, deemed important by both
the Supreme Court and Congress, to carry out its
punishment against Petitioner without further delay.
This interest is indeed lost if the State cannot appeal
the grant of the Rhines stay now. The delay—which is,
in itself, a win for Petitioner—is exactly what harms
the State’s interest. Because delaying review would
jeopardize both “a substantial public interest” and
“some particular value of a high order,” the grant of a
Rhines stay in a capital case is “effectively
unreviewable on appeal from a final judgment.”
***
The Court cites to three other circuits in support of
its holding that a grant of a Rhines stay is reviewable
cause” and an understanding that the district court cannot
consider time and procedural bars.

64a
after final judgment: Grace v. Vannoy, 826 F.3d 813
(5th Cir. 2016); Howard v. Norris, 616 F.3d 799 (8th
Cir. 2010); and Thompson v. Frank, 599 F.3d 1088 (9th
Cir. 2010). The most important thing to note about
Howard and Thompson is that neither considers “the
decisive consideration” of “whether delaying review
until the entry of final judgment ‘would imperil a
substantial public interest’ or ‘some particular value of
a high order.’” Mohawk Indus., Inc., 558 U.S. at 107
(quoting Will, 546 U.S. at 352–53) (emphasis added);
Howard, 616 F.3d at 802–803; Thompson, 599 F.3d at
1090. This alone renders their analyses unpersuasive.
Even if we push that crucial fact aside, these cases
otherwise rest on flimsy reasoning. In Thompson, the
Ninth Circuit indeed held “[a] district court order
staying proceedings to allow a state habeas petition to
exhaust claims in state court is reviewable on appeal
after final judgment.” 599 F.3d at 1090. In support, the
Ninth Circuit cited two cases: Valdovinos v. McGrath,
598 F.3d 568, 573–74 (9th Cir. 2010), vacated sub nom.
Horel v. Valdovinos, 562 U.S. 1196 (2011), and Olvera
v. Giurbino, 371 F.3d 569, 574 (9th Cir. 2004). Olvera
involved a district court’s refusal to stay proceedings
and, therefore, lends no support for the proposition for
which the Ninth Circuit cited it. 371 F.3d at 574.
Valdovinos, a vacated Ninth Circuit opinion, does not
support Thompson’s holding either. In Valdovinos, the
State did not even argue the district court erred in
granting a Rhines stay. Br. for Appellee, Valdovinos,
598 F.3d 568 (No. 08-15918), 2009 WL 2444195.
Rather, the State argued that “the district court erred
in allowing petitioner to amend his petition to include
new and revised claims he first presented in his

65a
traverse after the AEDPA time limit had passed.” Id.
Of course, because the State did not argue the district
court erred in granting a Rhines stay, the Petitioner
did not argue such an issue was moot. Reply Br.,
Valdovinos, 598 F.3d 568 (No. 08-15918), 2009 WL
2444196. Perhaps confused, the Valdovinos court
then—totally unsolicited—noted the district court did
not abuse its discretion in issuing a Rhines stay. 598
F.3d at 573–74. This flippant advisory statement,
which was made in passing as the Valdovinos court
addressed the claim the State actually made in that
case, sheds absolutely no light on whether the grant of
a Rhines stay is effectively unreviewable on appeal
from final judgment. Accordingly, by relying solely on
Olvera and Valdovinos, Thompson reached its holding
on paper-thin support, and this writer cannot take
Thompson seriously for such a holding.
The Court also cites to Howard, which held the
grant of a Rhines stay “fails the third condition [of the
collateral order doctrine] ‘because a district court’s
conclusion about whether a habeas claim has been
exhausted is addressable on appeal after final
judgment.’” 616 F.3d at 802 (quoting Thompson, 599
F.3d at 1090). In Howard, the Eighth Circuit noted it
was “significant” that the petitioner did not “challenge
the district court’s application of the three Rhines
factors, and thus [did] not challenge the delay involved
in the stay itself.” Id. at 803. Instead, the petitioner
“challenge[d] the propriety of the stay only as it
relate[d] to the merits of whether the district court
erred in concluding some of [the petitioner’s] claims
were unexhausted.” Id. Thus, Howard might not be
applicable to our instant case, but even if it is,

66a
Howard’s sole reliance on Thompson in its onesentence analysis of whether the issues could be
addressed on appeal renders its analysis unpersuasive.
The latest circuit to join the conversation is the
Fifth Circuit in Grace. Grace relied on Thompson and
Howard—albeit in conjunction with a more thoughtful
analysis—to reach the conclusion that Rhines stays are
not appealable orders. Grace, 826 F.3d at 820–21. Of
utmost importance, however, Grace was not a capital
case. Id. at 819 (“Indeed, Grace was sentenced to life in
prison; he is not delaying execution of a capital
sentence.”). The interest involved in Grace is
completely different than the interest at issue in this
case. Capital prisoners have every incentive to delay
their proceedings, while other prisoners have every
incentive to expedite their proceedings. Because of this
inherent difference between capital and non-capital
cases, Grace’s reasoning is not relevant to the instant
capital case. Nothing in these three cases moves me in
the slightest from my view that grants of Rhines stays
in capital cases are effectively unreviewable on appeal
from final judgment.
C.
As if satisfying the three collateral order doctrine
elements was not enough, the policy behind limiting
jurisdiction to “final” orders—which in many cases cuts
against the exercise of jurisdiction, see, e.g., Moses H.
Cone, 460 U.S. at 31 (Rehnquist, J., dissenting)—
supports our exercise of jurisdiction in this case. One
policy behind section 1291’s “finality” requirement is to
“prevent[] the debilitating effect on judicial
administration caused by piecemeal appeal disposition

67a
of what is, in practical consequence, but a single
controversy.” Coopers & Lybrand, 437 U.S. at 471
(quoting Eisen v. Carlisle & Jacquelin, 417 U.S. 156,
170 (1974)); see also Moses H. Cone, 460 U.S. at 31
(Rehnquist, J., dissenting) (“To be effective, judicial
administration must not be leaden-footed.”). In other
words, the finality requirement of section 1291
prevents unnecessary steps back and forth between the
federal district court and the federal appellate court.
But ironically, piecemeal litigation is precisely what
the issuance of a Rhines stay causes!8 Even though
federal courts do not feel the “debilitating effect,” it is
certainly felt by our state brethren who are currently
adjudicating Petitioner’s supplemental-instruction
claim that is in all likelihood time and procedurally
barred. The waste of state judicial resources—not to
mention the resources of the Utah Office of the
Attorney General—is plain. While this is not the
particular “debilitating effect on judicial
administration” the finality requirement generally
aims to prevent, it is no less of a “debilitating effect on
judicial administration” in state court. In sum, because

8

Congress and the Supreme Court have determined this piecemeal
litigation, which is specifically caused by the total exhaustion
requirement that renders Rhines stays necessary, is justified by
comity. That is, state courts should have the chance to decide all
issues before federal courts do. The Powell Committee questioned
whether, in reality, we promote comity by allowing the state court
to decide an issue before the federal court can. See Powell Comm.
Report, supra page 1, at 22–23 (“Because of the existence of state
procedural default rules, exhaustion is futile in the great majority
of cases. It serves the state interest of comity in theory, but in
practice it results in delay and undermines the state interest in the
finality of its criminal convictions.”).

68a
a Rhines stay already causes piecemeal litigation, the
policy behind not exercising jurisdiction here—i.e.,
preventing piecemeal litigation—rings hollow.
IV.
The Supreme Court has made itself perfectly clear
that only a “narrow class” of decisions fall within the
collateral order doctrine, and I have taken this
directive to heart. See Los Lobos Renewable Power,
LLC, 885 F.3d at 673–76 (Baldock, J., dissenting from
the Court’s exercise of jurisdiction pursuant to the
collateral order doctrine). The grant of a Rhines stay in
capital cases, however, is one of the few decisions that
falls within the narrow class. The Supreme Court
clearly intended there to be meaningful restrictions on
when a district court may issue a Rhines stay. As the
district court’s order demonstrates, there currently are
none.
Because we have jurisdiction pursuant to the
collateral order doctrine, I respectfully dissent. I would
proceed to the merits.

69a

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF UTAH, CENTRAL DIVISION
2:07-CV-00359-CW
Judge Clark Waddoups
[Filed November 16, 2017]
________________________________
TROY MICHAEL KELL,
)
)
Plaintiff,
)
)
v.
)
)
SCOTT CROWTHER, WARDEN, )
UTAH STATE PRISON;
)
)
Defendant.
)
________________________________ )
MEMORANDUM
DECISION AND ORDER
Before the court is Petitioner Troy Michael Kell’s
Motion to Stay Federal Habeas Proceedings pursuant
to Rhines v. Weber, 544 U.S. 269, 276 (2005). (ECF No.
245.) Respondent (the State) filed its opposition. (ECF
No. 247.) Kell addressed the State’s objections in his
reply. (ECF. 254.) Kell moves this court to stay his
federal habeas proceedings while he returns to state

70a
court to attempt to exhaust previously unexhausted
claims, specifically Claims 3(D) and 3(F) from his
amended petition. The State opposes Kell’s motion,
arguing that he has not shown good cause for failing to
exhaust his claims, the claims lack any potential merit,
and the motion is dilatory.
I. PROCEDURAL BACKGROUND
Kell was serving a life-without-parole sentence for
murder when he stabbed fellow inmate Lonnie
Blackmon to death. On August 1, 1996, a jury convicted
Kell and sentenced him to death. See generally State v.
Kell, 61 P.3d 1019 (Utah 2002). On November 1, 2002,
the Utah Supreme Court affirmed Kell’s conviction and
sentence. (Id.) On August 1, 2005, Kell’s post-conviction
counsel filed a 21-page Amended Petition for PostConviction Relief that contained only one case citation,
and appended no declarations or other new evidence.
(PCR 252-72.)1 The state moved to dismiss, (PCR 29093), and the court granted the motion. The Utah
Supreme Court affirmed. Kell v. State, 194 P.3d 913
(Utah 2008).
On January 13, 2009, Mr. Kell filed a pro se motion
for relief pursuant to Utah Rule 60(b) in the state
court, alleging that he had received ineffective
assistance of counsel in his post-conviction proceedings
because counsel had failed to investigate and failed to

1

The court will cite to the record of Kell’s state post-conviction
proceedings, Utah Sixth Judicial District, Sanpete County Case
No. 030600171, as “PCR” and the Bates-stamped page numbers,
for example PCR 431. A copy of this record is filed with the clerk’s
office in conjunction with ECF No. 118.

71a
raise many meritorious claims. (PCR 684-51.) Four
months later federal habeas counsel filed an Initial
Petition in Kell’s federal habeas case. (ECF No. 36.) On
June 12, 2009, counsel filed a motion to stay federal
habeas proceedings, so that he could resolve previouslypending state court litigation. (ECF Nos. 40, 41.) In its
order on the motion to stay, the court noted that Kell
had filed a “protective federal habeas petition,” despite
still-pending state court litigation, in order to ensure
compliance with the AEDPA statute of limitations.
(ECF No. 51.)
The Utah Supreme Court denied the Rule 60(b)
appeal. Rehearing was denied and the case was
remitted on September 24, 2012. Kell filed his amended
petition in this court on January 14, 2013. (ECF No.
94.) His Amended Petition included, for the first time,
Claims 3(D) and 3(F), both of which allege extraneous
influence on jurors. (ECF No. 94 at 33-40.) These
claims were supported by declarations from jurors that
were signed in May 2012, after the Utah Supreme
Court had issued its opinion denying Mr. Kell’s Rule
60(b) motion. (See ECF No. 94, exhibits 1, 3, 4, 5, 10,
and 11.) Kell asserts that his Amended Petition in this
court was his first available opportunity to raise these
claims after the denial of his Rule 60(b) motion in state
court.
II. ANALYSIS
District courts have inherent authority to issue
stays, and AEDPA does not deprive courts of that
authority. But it does limit their discretion to exercise
that authority because a stay pursuant to Rhines
creates tension between AEDPA’s goals of federalism

72a
and comity and its goal of streamlining the federal
habeas process. As a result any stay under Rhines
cannot be indefinite and must meet certain criteria.
The petitioner must show that (1) good cause exists for
his failure to exhaust, (2) his unexhausted claims are
potentially meritorious, and (3) he has not engaged in
abusive litigation tactics or intentional delay. Rhines,
544 U.S. at 276-78. “Petitioner, as movant, has the
burden to show he is entitled to a stay under the
Rhines factors.” Carter v. Friel, 415 F.Supp.2d 1314,
1317 (D. Utah 2006).
A. Good Cause
The United States Supreme Court in Rhines did not
define with any precision what constitutes “good
cause.” One month after the Rhines decision, however,
the Court stated that “[a] petitioner’s reasonable
confusion about whether a state filing would be timely
will ordinarily constitute ‘good cause’ to excuse his
failure to exhaust.” Pace v. DiGuglielmo, 544 U.S. 408,
416-17 (2005).
Since the Pace decision, district courts have reached
different conclusions about whether good cause in the
Rhines context is akin to good cause to excuse
procedural default in federal court (which is a high
standard because it allows the district court to consider
the merits of a defaulted claim) or a more expansive
and equitable reading of good cause (which is a lower
standard that allows the claim to return to the state
court for merits review). Compare Hernandez v.
Sullivan, 397 F. Supp.2d 1205, 1207 (C.D. Cal. 2005)
(courts should look to procedural default law to
determine cause), with Rhines v. Weber, 408 F.Supp.2d

73a
844, 848-49 (D.S.D. 2005) (Rhines II) (rejecting
procedural default analysis for cause in exhaustion
context). Based in part on those different standards,
some district courts have found that ineffective
assistance of post-conviction counsel constitutes good
cause for failure to exhaust. See, e.g., Vasquez v.
Parrott, 397 F.Supp.2d 452, 464-65 (S.D.N.Y. 2005); See
also Rhines II.
There is no Tenth Circuit Court of Appeals decision
that explains what constitutes “good cause” in the
context of a Rhines motion. The only circuit court to
directly address whether the good cause standard
should be high or low is the Ninth Circuit. In Blake v.
Baker, 745 F.3d 977 (9th Cir. 2014), the court followed
Pace and Rhines II to find that good cause for a Rhines
stay cannot be any more demanding than a showing of
cause for procedural default under Martinez v. Ryan,
566 U.S. 1 (2012), and, in fact, may be less demanding.
In two recent cases in the United States District
Court for the District of Utah, two district court judges
clarified “good cause” in the context of a Rhines motion.
Lafferty v. Crowther, No. 2:07-CV-322, ECF No. 379 (D.
Utah Oct. 30, 2015); Archuleta v. Crowther, No. 2:07CV-630, ECF No. 107 (D. Utah Nov. 12, 2014). Both
courts found the analysis of Blake and Rhines II
persuasive because in the Rhines context a petitioner
is returning to state court to allow the state court to
consider his claims. The Lafferty and Archuleta courts’
reasoning reflects the important distinction between
the “good cause” necessary to excuse the default of
state claims, allowing for federal review of a claim, and
the “good cause” necessary to excuse the default of

74a
state claims, allowing a petitioner to return to state
court in order to afford the state court the first
opportunity to consider the claim. “Good cause” in the
context of a stay and abeyance procedure is distinct in
that the federal court is not preventing the state court
from reviewing a claim, rather it is deciding whether a
stay is permissible so that the state court can first
review the claims before it is presented in federal court.
The Blake court held that ineffective assistance of
state post-conviction counsel can establish good cause
for failure to exhaust. “While a bald assertion [of
ineffective assistance of post-conviction counsel] cannot
amount to a showing of good cause, a reasonable
excuse, supported by the evidence to justify a
petitioner’s failure to exhaust, will.” Blake, 745 F.3d at
982. The judges in Archuleta and Lafferty agreed with
the Blake court that “ineffective assistance of postconviction counsel may constitute good cause for failure
to exhaust claims in state court. Archuleta v. Crowther,
No. 2:07-CV-630, ECF No. 107 at 9-10; Lafferty v.
Crowther, No. 2:07-CV-322, ECF No. 379 at 8.
The State argues that unless post-conviction
counsel had some reason to believe that the jury
deliberations had been extraneously influenced,
counsel’s performance could not have been deficient for
not interviewing the jurors. However, the only way that
counsel could have established reason to believe jurors’
deliberations had been extraneously influenced would
be by speaking with the jurors. The Supreme Court has
held that a decision to cease investigation must itself
be based on a reasonable investigation. See Strickland
v. Washington, 466 U.S. 668, 690-91 (1984); Williams

75a
v. Taylor, 529 U.S. 396 (2000); Wiggins v. Smith, 539
U.S. 510, 533-34 (2003). Post-conviction counsel could
not have made a reasonable strategic decision to limit
investigation of jurors because counsel had not
conducted any investigation at all. Counsel filed a
perfunctory petition, failed to conduct even a cursory
investigation of the case, including failing to interview
even a single juror, and admitted that none of these
decisions were strategic. See ECF No. 94 at 150-51,
156-60; ECF No. 94-1 Ex. 15; ECF No. 115 at 180-85;
ECF No. 115-1 Ex. 1 at ¶ 6; ECF No. 245 at 12, 15.
State post-conviction counsel’s deficient performance
constitutes cause under Rhines.
B. Potentially Meritorious
For a federal case to be stayed, the unexhausted
claims must be “potentially meritorious” and not
“plainly meritless.” Rhines, 544 U.S. at 277-78.
Kell argues that his claims are “potentially
meritorious” because Rhines requires nothing more
than a showing that he raised a “colorable federal
claim.” ECF No. 245 at 8. He argues that the substance
of his claims is not plainly meritless, and that state
procedural rules are irrelevant to the inquiry.
The State argues that this hurdle is less about the
substance of a claim and more about the procedural
way that it would be presented to, and treated by, the
state courts. The State argues that Kell’s claims are
plainly meritless within the meaning of Rhines because
time and procedural bars would prevent Kell from
exhausting the merits of his claims in state court. ECF
No. 247 at 20.

76a
The court in Lafferty, when addressing the identical
argument—that Mr. Lafferty’s claims were not
potentially meritorious because they would be barred
in state court—held the following: “The Utah Supreme
Court may agree with the state. It may not. But it is
the state court, not the federal court, that should
determine the procedural posture of a claim.” Order,
Lafferty, 2:07-cv-322-DB, ECF No. 379 at 9. “Whether
a state remedy is presently available is a question of
state law as to which only the state courts may speak
with final authority.” Simpson v. Camper, 927 F.2d
392, 393 (8th Cir. 1991). “[A] federal court always must
be chary about reaching a conclusion, based upon a
speculative analysis of what a state court might do,
that a particular claim is procedurally foreclosed.” Pike
v. Guarino, 492 F.3d 61, 74 (1st Cir. 2007). “If the state
court resolves the unexhausted claim on a procedural
ground, such as a procedural bar under state law,
[then] the federal court will review that disposition,
applying the standard of review that is appropriate
under the circumstances.” Fairchild v. Workman, 579
F.3d 1134, 1153 (10th Cir. 2009). Federalism and comity
require that the state courts have the opportunity to
make those procedural decisions. Thus, in considering
whether Kell’s claims are potentially meritorious, this
court will not address possible state court time and
procedural bars, but will leave the determination of the
procedural posture of the claims to the state court.

77a
1. Claim 3(D) is not potentially meritorious
and therefore fails to meet the Rhines
requirement
Kell argues in claim 3(D) that his right to a fair and
impartial jury was violated when the jurors considered
extraneous information and failed to adhere to the
court’s instructions regarding their discussion of
matters presented at trial. The sources of the alleged
extraneous information were (1) “discussions between
jurors regarding the content of the trial while the trial
was still in process,” and (2) “communications to the
jurors from the CUCF [Central Utah Correction
Facility] staff regarding their opinions on the
appropriate outcome for the trial and dangerousness of
Mr. Kell.” ECF No. 245 at 10. The court finds that
claim 3(D) does not satisfy the potentially meritorious
prong of the Rhines analysis, because even if factually
true, it does not show that jurors were exposed to any
improper extraneous information.
The court notes that under both the Utah Rules of
Evidence and the Federal Rules of Evidence, a juror
“may not testify about any statement made or incident
that occurred during the jury’s deliberations; the effect
of anything on that juror’s or another juror’s vote; or
any juror’s mental processes concerning the verdict or
indictment.” Utah R. Evid. 606(b)(1); Fed. R. Evid.
606(b)(1). “The court may not receive a juror’s affidavit
or evidence of a juror’s statement on these matters.” Id.
There is, however, an exception to this rule: a court
may consider a juror’s testimony about whether
“extraneous prejudicial information was improperly
brought to the jury’s attention,” or whether “an outside

78a
influence was improperly brought to bear on any juror.”
Fed. R. Evid. 606(b)(2). The “extraneous influences
exception covers only “misconduct such as jurors
reading news reports about the case, jurors
communicating with third parties, bribes and jury
tampering.” United States v. Benally, 546 F.3d 1230,
1236 (10th Cir. 2008).
In Kell’s case, two of the jurors carpooled to and
from the trial each day and sometimes discussed the
fact that the trial was giving them nightmares. ECF
No. 94-1, Exhibits 5 and 11. However, neither juror
attests to discussing “the content of the trial.” They
merely state that they discussed how the content of the
trial was giving them nightmares. Their nightmares,
which preceded their discussion, were mental
impressions concerning the case. And the discussion
itself, between two jurors, was not an external
influence; it was intrinsic. See U.S. v. Bassler, 651 F.2d
600, 601-2 (8th Cir. 1981) (holding that “[i]ntrinsic
influences on a jury’s verdict,” such as notes shared
among jurors, “are not competent to impeach a
verdict”). The jurors do not attest that they had any
pre-deliberation discussion about the trial evidence,
but even if they did discuss some of the content of the
case, there is no indication of extrinsic influence being
brought to bear on any juror.
The second aspect of claim 3(D) is that there were
communications to the jurors from the CUCF staff
regarding their opinions on the appropriate outcome for
the trial. The source of this claim was the declaration
of one juror, who stated that “there was also
community pressure to sentence Kell to death. I knew

79a
people who worked at the prison. When I would enter
the prison, I understood the sentiment for a death
sentence was strong among the prison guards that I
passed. All of the prison guards wanted the death
sentence. All of them. A lot of people looked at is [sic]
as, ‘He killed somebody and he ought to be killed.’” ECF
No. 94, Exhibit 10. The juror does not say how he
arrived at his conclusion. He attests only to his
impression about the sentiment among the security
guards. As such, his testimony does not fall under any
recognized exception to Rule 606(b). Thus, the evidence
supporting claim 3(D) is inadmissible.
A second juror stated: “Deputies escorted us to our
vehicles because they were afraid somebody might
retaliate against us. I guess they thought we might be
sniped or something.” ECF No. 94, Exhibit 4. Neither
of these jurors’ statements support the claim that
prison staff told or overtly communicated to the jurors
their opinions about the proper outcome. Phrases like
“I understood,” “people looked at [us] as,” and “I guess
they thought” make it clear that both of these jurors
were simply attesting to their impressions, which are
speculative and inadmissible. Neither of them attests
to any actual communication by any prison staff
member. As a result, claim 3(D) fails to show error,
much less a constitutional violation.
2. Claim 3(F) is potentially meritorious and
therefore meets the second prong of the
Rhines analysis
In claim 3(F) Kell argues that a supplemental
instruction to the jury by the trial court judge
unconstitutionally shifted the burden to him to prove

80a
that the jury should not impose death. ECF No. 94 at
39. Three jurors recall the judge providing clarification
for them on a point of law during their sentencing
deliberations. ECF No. 94, Exhibits 2, 5, 6. Specifically,
one juror stated:
I had a difficult time voting for the death
penalty but I agreed to do so after Judge Mower
came and spoke to the jurors as we deliberated.
He told us that Kell’s attorneys had to show us
that Kell’s life should be spared. The jury had
bogged down over a definition but the judge’s
statement helped because we wanted to be sure
that we were doing the right thing. I remember
that the judge was asked a question while he
was speaking to us, and he kidded around and
said he couldn’t address that question, and said
that it was up to us. After the judge came and
spoke to us, I felt more comfortable voting for
death.
ECF No. 94, Exhibit 5 at ¶ 2. That same juror also
recalled that “[t]here was no defense attorney present
when the judge spoke to us during deliberations,
though there was somebody with him.” Id. at ¶ 3. There
is no indication from the trial transcript of a question
from the jury after the beginning of the guilt or penalty
deliberations. ROA at 5464-67, 5735-37, 5742.
Kell argues that the trial judge’s alleged instruction
to the jury tainted the deliberation process and
unconstitutionally shifted the burden to him to prove
that his life should be spared. He also asserts that the
judge’s alleged actions violated the Utah Rules of
Criminal Procedure, which state that if the jury

81a
“desire[s] to be informed on any point of law arising in
the cause,” the jury should “be brought before the court
where, in the presence of the defendant and both
counsel, the court shall respond to the inquiry or advise
the jury that no further instructions shall be given,” or
the court may “respond to the inquiry in writing, . . .
and the response thereto shall be entered in the
record.” Utah R. Crim. P. 17(n). Kell argues that this
was a prejudicial error of constitutional magnitude,
and that therefore, he has a colorable claim for statecourt relief.
Counsel in Kell’s state habeas proceedings admitted
that he was unaware of this issue because he failed to
speak with any of the jurors, and that there was no
strategic reason for his failure to do so. ECF No. 94,
Exhibit 15 at ¶¶ 3, 4, 12, 14. Because counsel was
unaware of the issue, he failed to raise this claim to the
state court, meaning that Kell has been denied the
opportunity to have this potentially significant claim
reviewed by the state court. Counsel’s failure to raise
this potentially meritorious claim constitutes good
cause under Rhines.
C. Intentionally Dilatory Litigation Tactics
The final Rhines requirement is that the petitioner
show that he has not engaged in “abusive litigation
tactics or intentional delay.” Rhines, 544 U.S. at 27778. This requirement recognizes that “capital
petitioners might deliberately engage in dilatory tactics
to prolong their incarceration and avoid execution of
the sentence of death. Without time limits, petitioners
could frustrate AEDPA’s goal of finality by dragging
out indefinitely their federal habeas review.” Id. The

82a
State argues that Kell’s Rhines motion is dilatory,
because it comes ten years into this federal case and
after his federal habeas petition has been submitted for
decision on oral argument. Although Kell notes that he
has complied with the requirements of the Case
Management Schedule as agreed to by the parties and
ordered by the court, the State argues that the case
management schedule did not prohibit Kell from
asking for a Rhines stay earlier.
The court finds no indication that Kell has engaged
in intentional or abusive dilatory litigation tactics.
Although federal habeas counsel was initially
appointed in this case in 2007, the federal proceedings
were stayed and could not move forward because state
proceedings were still ongoing from that time until late
2012. In its order staying the federal proceedings, this
court found that Kell had filed a “protective federal
habeas petition,” despite the pendency of litigation in
state court, in order to ensure compliance with the
AEDPA statute of limitations. ECF No. 51. Shortly
after the state court proceedings concluded, Kell filed
in this court his Amended Petition for Writ of Habeas
Corpus, which included for the first time claims 3(D)
and 3(F). Kell noted in his Amended Petition that he
would be filing a motion for a stay pursuant to Rhines
at the appropriate time. Two months later the parties
entered into the stipulated Case Management
Schedule, in which they agreed to address discovery
and an evidentiary hearing prior to addressing other
issues. ECF No. 97. Motions related to discovery and
evidentiary hearing were resolved on June 23, 2017
(ECF No. 238), and counsel filed this motion on August

83a
28, 2017. The court does not find Kell to have engaged
in intentional or abusive dilatory litigation tactics.
III. CONCLUSION
After carefully considering the arguments and
claims before the court in Kell’s Motion to Stay (ECF
No. 245.), this court hereby grants a limited stay and
abeyance only with respect to Claim 3(F) of his
Amended Petition so that he may properly exhaust that
claim in the state court. The court denies the motion
with respect to Claim 3(D). Mr. Kell must commence
his proceedings in state court within thirty days of this
order, and he shall provide the court with status
updates every three months. Mr. Kell must notify the
court immediately upon the resolution of the state
court proceedings.
Also, the court authorizes the Public Defender of the
District of Arizona to represent Kell in state court
proceedings pursuant to 18 U.S.C. § 3599, so that he
may attempt to properly exhaust Claim 3(F).
IT IS SO ORDERED.
DATED this 16th day of November, 2017.
BY THE COURT:
/s/Clark Waddoups
CLARK WADDOUPS
United States District Court Judge

84a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF UTAH, CENTRAL DIVISION
2:07-CV-00359-CW
District Judge Clark Waddoups
[Filed February 9, 2018]
________________________________
TROY MICHAEL KELL,
)
)
Plaintiff,
)
)
v.
)
)
SCOTT CROWTHER, WARDEN, )
UTAH STATE PRISON;
)
)
Defendant.
)
________________________________ )
MEMORANDUM
DECISION AND ORDER
On November 16, 2017, the court, in a written
order, granted Mr. Kell a limited stay and abeyance
only with respect to Claim 3(F) of his Amended Petition
so that he could properly exhaust that claim in state
court. (ECF No. 258.) The court found that under
Rhines v. Weber, 544 U.S. 269 (2005), Kell had shown
a potentially meritorious claim, good cause for the stay
and that his tactics were not abusive or dilatory. When

85a
addressing the good cause element, however, the court
noted a lack of agreement on what that term means,
and a lack of controlling Tenth Circuit precedent. The
court’s decision was not a final appealable decision, and
the State now seeks certification under 28 U.S.C.
§ 1292(b) to pursue interlocutory appellate review of
the following legal question: What “good cause”
standard must a federal habeas petitioner satisfy to
obtain a stay-and-abeyance of federal habeas
proceedings under Rhines v. Weber, 544 U.S. 269
(2005)?
Title 28 of the United States Code addresses the
court of appeals’ limited appellate jurisdiction over
interlocutory decisions. Respondent relies on a subpart
of 28 U.S.C. § 1292, which sets forth an exception to
the general rule that interlocutory decisions are not
appealable:
When a district judge, in making in a civil action
an order not otherwise appealable under this
section, shall be of the opinion that such order
involves a controlling question of law as to which
there is substantial ground for difference of
opinion and that an immediate appeal from the
order may materially advance the ultimate
termination of the litigation, he shall so state in
writing in such order.
28 U.S.C. § 1292(b) (emphasis added). The decision to
grant certification lies within the sound discretion of
the district court.

86a
A. Controlling Question of Law
In order to obtain interlocutory review under
§ 1292(b), Respondent must point to “a controlling
question of law about which there is substantial ground
for difference of opinion.” Mere disagreement with the
court’s ruling is insufficient. See United States v. Grand
Trunk W.R.R, 95 F.R.D. 463, 471 (W.D. Mich. 1981).
The State asserts that this court’s Rhines ruling
identified and resolved “a controlling question of
law”—the meaning of “good cause” under Rhines. The
State notes that without deciding what the term meant
and that Kell had met the standard, the court could not
have granted Kell’s Rhines motion. Although Kell
argues that the court did not explicitly articulate a
standard in its Memorandum Decision and Order, a
close look at the order shows that the court adopted the
lower Blake standard. The court noted that ineffective
assistance of post-conviction counsel would satisfy
Rhines good cause only under Blake’s lower standard,
and then found that “post-conviction counsel’s deficient
performance” in Kell’s case “constitutes cause under
Rhines.” (ECF No. 258 at 5.)
The parties agree that “controlling question[s] of
law” under § 1292(b) include questions that (1) are
“serious to the conduct of the litigation, either
practically or legally,” Katz v. Carte Blanche Corp., 496
F.2d 747, 755 (3d Cir. 1974); (2) could “affect the ability
of the district court to render a binding decision” or
“materially affect the outcome of the litigation in the
district court,” In re Cement Antitrust Litig., 673 F.2d
1020, 1027 (9th Cir. 1981); or (3) “might save time for
the district court, and time and expense for the

87a
litigants,” Johnson v. Burken, 930 F.2d 1202, 1206 (7th
Cir. 1991). This court’s good cause determination, and
the resulting stay, fits each of these.
First, the court must consider whether its decision
to grant a limited stay as to claim 3(F) is serious to the
conduct of the litigation, either practically or legally.
Kell argues that it has no bearing on the court’s ability
to substantively decide his claims (citing In re Cement
Antitrust Litig., 673 F.2d 1020, 1027 (9th Cir. 1981)).
He argues that a stay order “merely regulate[s] the
course of the proceedings” (citing Swanson v. DeSantis,
606 F.3d 829, 932 (6th Cir. 2010)). The court disagrees.
The Rhines order clearly bears on this court’s ability to
reach claim 3(F) because, without a stay that enables
Kell to exhaust the claim, it remains unexhausted and
beyond merits review. The court’s order permits Kell to
exhaust the claim and then present it in this court for
merits review. Whether Kell met the Rhines “good
cause” standard thus has a substantial effect on this
court’s ability to reach the merits of Kell’s claim. For
this reason the question could “materially affect the
outcome of the litigation in the district court.” In re
Cement Antitrust Litig., 673 F.2d at 1027. Thus, the
question of what constitutes good cause under Rhines
is a controlling question of law.
B. Substantial Ground for Difference of
Opinion
The standard for a substantial ground for difference
of opinion is met “where ‘the circuits are in dispute on
the question and the court of appeals of the circuit has
not spoken on the point, if complicated questions arise
under foreign law, or if novel and difficult questions of

88a
first impression are presented.’” Couch v. Telescope,
Inc., 611 F.3d 629 (9th Cir. 2010) (internal citation
omitted). The State fails to meet this requirement.
While this court recognized that some district courts
have reached different conclusions about what is
required to show good cause for a Rhines stay (see ECF
No. 258, at 3), the decisions in this district which have
addressed the issue have predominantly applied the
standard adopted in Blake v. Baker, 745 F.3d 977 (9th
Cir. 2014) and Rhines v. Weber, 408 F.Supp. 844,
848-49 (D.S.D 2005) (Rhines II). Some of these courts
have granted stays based on that standard (see, e.g.,
Archuleta v. Crowther, No. 2:07-CV-630, ECF No. 107
(D. Utah, Nov. 12, 2014); and Taylor v. Turley, No.
2:07-CV-194, ECF No. 45 (D. Utah, Feb. 14, 2008)),
while others have adopted the standard but have
denied the stay for other reasons, see, e.g., Lafferty v.
Crowther, No. 2:07-CV-322, ECF No. 379 (D. Utah, Oct.
30, 2015); and Honie v. Crowther, 2:07-CV-628, ECF
No. 120 (D. Utah, Dec. 13, 2017).
One Utah case, Carter v. Friel, 415 F.Supp.2d 1314
(D. Utah 2006), followed Hernandez v. Sullivan, 397
F.Supp.2d 1205, 1207 (C.D. Cal. 2005), a case in which
the district court reached a different conclusion about
the good cause standard. In the absence of other
guidance, the Hernandez court found an analogy to the
standard applied in procedural default cases and
applied what it referred to as an objective standard.
But as this court observed, the Hernandez analysis was
subsequently rejected by the Ninth Circuit in Blake.
Although Carter, which was decided only a year after
Rhines, followed Hernandez, the court did not have the
benefit of the later analysis by the Ninth Circuit in

89a
Blake. No court in this district has since followed
Carter. Moreover, the Carter court, upon remand from
the Tenth Circuit, recently granted a Rhines stay in the
same case to allow Carter to exhaust some of his claims
in state court. Carter v. Crowther, 2:02-CV-326, ECF
No. 576, 2016 WL 843273 (D. Utah, March 1, 2016).
Thus, the present state of the law is that in this
district the predominant trend is to follow the Blake
good cause standard. Given this trend, there is not
sufficient basis to find a difference of opinion on which
standard should apply. The State also fails to cite to a
difference among the circuits. There is not a
substantial disagreement among any binding
authorities that a standard other than the one applied
by the court in this case should apply. Under these
precedents, there is no substantial ground for an
interlocutory appeal.
C. Materially advance the ultimate termination
of the litigation
Having found no substantial ground for difference
of opinion, this court need not consider whether an
immediate appeal from the Rhines order “may
materially advance the ultimate termination of the
litigation.” 28 U.S.C. § 1292(b). However, it does not
appear that an immediate appeal would necessarily
materially advance the termination of the litigation.
This court granted “a limited stay and abeyance only
with respect to Claim 3(F)” of Mr. Kell’s Amended
Petition. (ECF No. 258 at 11-12 ) (emphasis in
original). The court did not grant a stay with respect to
any other claim in the petition. So while Mr. Kell
returns to state court to exhaust Claim 3(F), this court

90a
will move forward in deciding the remainder of Mr.
Kell’s claims. The only way that an interlocutory
appeal would advance the ultimate termination of the
litigation, is if the Tenth Circuit were to decide the
“good cause” standard differently than this court did,
and if Kell were unable to prove good cause under the
different standard, meaning he would not be entitled to
a Rhines stay, so the entire petition could be decided
immediately. See Rhines, 544 U.S. at 276–78. If the
stay order were affirmed, on the other hand, “the
interlocutory appeal would have delayed the ultimate
termination of this case rather than advanced it.” See
Valdovinos v. McGrath, 2007 WL 2023505 at *4
(N.D.Cal. July 12, 2007).
For the above reasons, the court hereby DENIES
Respondent’s Motion to Amend Rhines Order to Include
Certification Under 28 U.S.C. § 1292(b). (ECF No. 261.)
IT IS SO ORDERED.
DATED this 8th day of February, 2018.
BY THE COURT:
/s/Clark Waddoups
CLARK WADDOUPS
United States District Court Juge

